<html>
<title> - ENVIRONMENTAL JUSTICE AND THE TOXICS RELEASE INVENTORY REPORTING PROGRAM: COMMUNITIES HAVE A RIGHT TO KNOW</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                  ENVIRONMENTAL JUSTICE AND THE TOXICS
                  RELEASE INVENTORY REPORTING PROGRAM:
                    COMMUNITIES HAVE A RIGHT TO KNOW

=======================================================================

                                HEARING

                               BEFORE THE

          SUBCOMMITTEE ON ENVIRONMENT AND HAZARDOUS MATERIALS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                        H.R. 1055 and H.R. 1103

                               __________

                            OCTOBER 4, 2007

                               __________

                           Serial No. 110-71


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
45-093 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                    COMMITTEE ON ENERGY AND COMMERCE

                  JOHN D. DINGELL, Michigan, Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             J. DENNIS HASTERT, Illinois
FRANK PALLONE, Jr., New Jersey       FRED UPTON, Michigan
BART GORDON, Tennessee               CLIFF STEARNS, Florida
BOBBY L. RUSH, Illinois              NATHAN DEAL, Georgia
ANNA G. ESHOO, California            ED WHITFIELD, Kentucky
BART STUPAK, Michigan                BARBARA CUBIN, Wyoming
ELIOT L. ENGEL, New York             JOHN SHIMKUS, Illinois
ALBERT R. WYNN, Maryland             HEATHER WILSON, New Mexico
GENE GREEN, Texas                    JOHN B. SHADEGG, Arizona
DIANA DeGETTE, Colorado              CHARLES W. ``CHIP'' PICKERING, 
    Vice Chairman                    Mississippi
LOIS CAPPS, California               VITO FOSSELLA, New York
MIKE DOYLE, Pennsylvania             STEVE BUYER, Indiana
JANE HARMAN, California              GEORGE RADANOVICH, California
TOM ALLEN, Maine                     JOSEPH R. PITTS, Pennsylvania
JAN SCHAKOWSKY, Illinois             MARY BONO, California
HILDA L. SOLIS, California           GREG WALDEN, Oregon
CHARLES A. GONZALEZ, Texas           LEE TERRY, Nebraska
JAY INSLEE, Washington               MIKE FERGUSON, New Jersey
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
MIKE ROSS, Arkansas                  SUE WILKINS MYRICK, North Carolina
DARLENE HOOLEY, Oregon               JOHN SULLIVAN, Oklahoma
ANTHONY D. WEINER, New York          TIM MURPHY, Pennsylvania
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina     MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana

                                 ______

                           Professional Staff

                 Dennis B. Fitzgibbons, Chief of Staff

                   Gregg A. Rothschild, Chief Counsel

                      Sharon E. Davis, Chief Clerk

               David L. Cavicke, Minority Staff Director

                                  (ii)
          Subcommittee on Environment and Hazardous Materials

                   ALBERT R. WYNN, Maryland, Chairman
FRANK PALLONE, Jr., New Jersey       JOHN SHIMKUS, Illinois,
BART STUPAK, Michigan                     Ranking Member
LOIS CAPPS, California               CLIFF STEARNS, Florida
TOM ALLEN, Maine                     NATHAN DEAL, Georgia
HILDA L. SOLIS, California           HEATHER WILSON, New Mexico
    Vice Chairman                    JOHN B. SHADEGG, Arizona
TAMMY BALDWIN, Wisconsin             VITO FOSELLA, New York
G.K. BUTTERFIELD, North Carolina     GEORGE RADANOVICH, California
JOHN BARROW, Georgia                 JOSEPH R. PITTS, Pennsylvania
BARON P. HILL, Indiana               LEE TERRY, Nebraska
DIANA DeGETTE, Colorado              MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York          JOHN SULLIVAN, Oklahoma
HENRY A. WAXMAN, California          TIM MURPHY, Pennsylvania
GENE GREEN, Texas                    JOE BARTON, Texas (ex officio)
JAN SCHAKOWSKY, Illinois
JOHN D. DINGELL, Michigan (ex 
    officio)
                                 ------                                

                           Professional Staff

                    Richard Frandsen, Chief Counsel
                    Ann Strickland, Brookings Fellow
                        Caroline Ahearn, Counsel
                         Rachel Bleshman, Clerk
                     Gerald Couri, Minority Counsel
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Albert R. Wynn, a Representative in Congress from the State 
  of Maryland, opening statement.................................     1
 Hon. John Shimkus, a Representative in Congress from the State 
  of Illinois, opening statement.................................     3
Hon. Hilda L. Solis, a Representative in Congress from the State 
  of California, opening statement...............................     5
Hon. John Barrow, a Representative in Congress from the State of 
  Georgia, opening statement.....................................     6
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
Hon. Tammy Baldwin, a Representative in Congress from the State 
  of Wisconsin, opening statement................................    10
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, prepared statement......................................    11

                               Witnesses

Granta Y. Nakayama, Assistant Administrator, Office of 
  Enforcement and Compliance Assurance, U.S. Environmental 
  Protection Agency..............................................    12
    Prepared statement...........................................    15
    Answers to submitted questions...............................   219
Wade Najjum, Assistant Inspector General, Program Evaluation, 
  Office of Inspector General, U.S. Environmental Protection 
  Agency.........................................................    24
    Prepared statement...........................................    25
    Answers to submitted questions...............................   210
Molly O'Neill, Assistant Administrator, Office of Environmental 
  Information, U.S. Environmental Protection Agency..............    28
    Prepared statement...........................................    31
    Answers to submitted questions...............................   232
Thomas M. Sullivan, Chief Counsel, Advocacy, Office of Advocacy, 
  U.S. Small Business Administration.............................    38
    Prepared statement...........................................    40
    Answers to submitted questions...............................   264
John B. Stephenson, Director, Natural Resources and Environment, 
  Government Accountability Office...............................    48
    Prepared statement...........................................    50
    Answers to submitted questions...............................   257
Hilary O. Shelton, Director, National Association for the 
  Advancement of Colored People, Washington Bureau...............    93
    Prepared statement...........................................    95
Robert D. Bullard, Ware professor, Department of Sociology; 
  director, Environmental Justice Resource Center, Clark Atlanta 
  University.....................................................    97
    Prepared statement...........................................    99
    Answers to submitted questions...............................   202
Jose Bravo, Communities for a Better Environment; executive 
  director, Just Transition Alliance.............................   107
    Prepared statement...........................................   108
    Answers to submitted questions...............................   197
Andrew Bopp, director, public affairs, Society of Glass and 
  Ceramic Decorators.............................................   110
    Prepared statement...........................................   113
    Answers to submitted questions...............................   193
Alan Finkelstein, assistant fire marshal, Strongsville Fire and 
  Emergency Services.............................................   119
    Prepared statement...........................................   121
    Answers to submitted questions...............................   206
Nancy Wittenberg, assistant commissioner, New Jersey Department 
  of Environmental Protection....................................   131
    Prepared statement...........................................   133
    Answers to submitted questions...............................   215

                           Submitted Material

H.R. 1055, to amend the Emergency Planning and Community Right-
  to-Know Act of 1986 to strike a provision relating to 
  modification in reporting frequency............................   148
H.R. 1103, to codify Executive Order 12898, relating to 
  environmental justice, to require the Administrator of the 
  Environmental Protection Agency to fully implement the 
  recommendations of the Inspector General of the Agency and the 
  Comptroller General of the United States, and for other 
  purposes.......................................................   151
Keith W. McCoy, executive director, Business Network for 
  Environmental Justice, letter of October 4, 2007, submitted by 
  Mr. Shimkus....................................................   158
Letter of support from various organizations, September 28, 2007.   182
307 Community, Environment, Faith Investor, Labor, Legal, Public 
  Health, Public Interest, Research and Scientists Organizations, 
  letter of September 28, 2007...................................   184
Roxanne Brown, legislative representative, United Steelworkers, 
  submitted statement............................................   191


                  ENVIRONMENTAL JUSTICE AND THE TOXICS
  RELEASE INVENTORY REPORTING PROGRAM: COMMUNITIES HAVE A RIGHT TO KNOW

                              ----------                              


                       THURSDAY, OCTOBER 4, 2007

              House of Representatives,    
                Subcommittee on Environment
                           and Hazardous Materials,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Albert R. 
Wynn (chairman) presiding.
    Members present: Representatives Solis, Capps, Baldwin, 
Barrow, Pallone, Pitts, Terry, Murphy, and Barton.
    Also present: Representative Shimkus.
    Staff present: Caroline Ahearn, Ann Strickland, Mary 
O'Lone, Dick Frandsen, Rachel Bleshman, Lauren Bloomberg, Jodi 
Seth, Jerry Couri, Garrett Golding, and Mo Zilly.

 OPENING STATEMENT OF HON. ALBERT R. WYNN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Wynn. Good morning. I would like to call the hearing to 
order. Today we have a hearing on H.R. 1103, the Environmental 
Justice Act of 2007, introduced by the distinguished vice chair 
of the subcommittee, Ms. Hilda Solis, and a hearing on H.R. 
1055, the Toxic Right-to-Know Protection Act, introduced by 
another distinguished member of this subcommittee, 
Representative Frank Pallone.
    For purposes of making opening statements the Chairs and 
ranking members of the subcommittee and the full committee will 
each be recognized for 5 minutes. All other members of the 
subcommittee will be recognized for 3 minutes, however, those 
members may waive the right to make an opening statement and 
when first recognized to question witnesses instead, add those 
3 minutes to their time for questions.
    Without objection all members have 5 legislative days to 
submit opening statements for the record.
    The Chair would now recognize himself for an opening 
statement.
    As I indicated, we are here to hold a hearing on two very 
important bills, the Environmental Justice Act of 2007, and 
also the Toxic Release Inventory Right-to-Know Act sponsored by 
Mr. Pallone. That is H.R. 1055. It restores the requirements 
for reporting toxic emissions data from polluting facilities 
and assures that the information is reported annually to the 
EPA.
    With respect to environmental justice, many people believe 
that the movement began in Warren County, NC, a poor, 
predominantly African-American community where I lived as a 
child. In 1978, transformer oil contaminated with cancer-
causing PCBs was illegally dumped over 210 miles of North 
Carolina roadsides. The roadsides were listed as an EPA 
Superfund site, and EPA approved a landfill to dispose of the 
contaminated soils.
    In 1982, dump trunks containing this waste rolled into 
Warren County and more than 6 weeks of marches and non-violent 
street demonstrations followed.
    In 1993, the community's greatest fear was realized, 
however. The landfill seal began to fail, threatening to 
contaminate drinking water. Decontamination of the landfill was 
not completed until 2003.
    The national attention given to Warren County resulted in a 
landmark study. In 1987, the United Church of Christ study, 
``Toxic Waste and Race in the United States,'' found that race, 
more than income or home values, was the main predictor for the 
location of hazardous waste facilities. In fact, people of 
color were 47 percent more likely to live near hazardous waste 
facilities than white Americans.
    To focus the Federal Government's attention on 
environmental and human health conditions in minority and low-
income communities, in 1994, President Clinton issued the 
Environmental Justice Executive order. Environmental justice 
strategies and policies were issued, and EPA created the Office 
of Environmental Justice.
    But more than a decade later, where are we? In a 2004 
report, the EPA Inspector General determined that EPA needs to 
consistently implement the intent of the Executive order on 
environmental justice. In a 2006 report the EPA Inspector 
General concluded, EPA needs to conduct environmental justice 
reviews of its programs, policies, and activities, and finally 
in 2005, the Government Accountability Office determined that 
EPA should devote more attention to environmental justice when 
developing clean air rules.
    In the United States today minorities are exposed to higher 
levels of air pollution. These exposure levels negatively 
affect the health of infants, are associated with higher rates 
of infant mortality, and also result in higher prevalence of 
death rates from asthma.
    For example, Puerto Rican children have an asthma rate 140 
percent higher than non-Hispanic white children and African-
Americans, only 12 percent of the population, constitute 25 
percent of all deaths from asthma.
    H.R. 1103 directs EPA to, one, conduct environmental 
justice reviews of its program and policies to determine 
whether they may have a disproportionately high and adverse 
human health or environmental affect on minority or low-income 
populations.
    Second, it requires EPA to analyze new rules to identify 
potential environmental justice issues to see if such 
disproportion affects will be created.
    Third, it requires EPA to fully respond to public 
confidence that raise environmental justice issues, and fourth, 
requires the EPA to provide emergency planning procedures. And 
fifth, creates Congressional reporting requirements to provide 
for oversight of EPA's implementation of the Act.
    Interesting, to add insult to injury, in December of this 
past year EPA adopted a new rule that reduces the amount of 
information on toxic chemical management and releases that is 
provided to EPA and the public. Under the Emergency Planning 
and Community Right-to-Know Act of 1986, EPCRA, facilities that 
manufacture, process, or otherwise use more than the specified 
amounts of nearly 650 toxic chemicals are required to report 
their releases to water, air, and land. This information is 
compiled in the Nation's Toxic Release Inventory.
    However, under EPA's new rules, for the first time, 
facilities will not have to provide detailed information about 
persistent bio-accumulative and toxic PBT chemicals. PBTs are 
long-lasting toxics such as lead, mercury, and PCPs that can 
build up in the body.
    In addition, for non-PBT chemicals, the EPA has 
significantly raised the threshold before facilities are 
required to report detailed information on releases or waste 
management. The impact of these data reporting changes is 
significant to minority and low-income communities. According 
to GAO nearly 22,000 detailed TRI reports containing 
information on the amounts of chemicals released and managed in 
some 3,500 facilities will no longer be required.
    EPA received over 120,000 comments about these changes; 99 
percent oppose the changes--including 23 States, 30 public 
health organizations, 40 labor organizations, and more than 200 
environmental and public interest groups. Even the EPA's 
Science Advisory Board objected to the changes.
    The Toxic Right-to-Know Protection Act will maintain the 
annual reporting requirements and provide the community with 
information it needs to assess the potential affects of toxic 
emissions from polluting facilities.
     At this time I recognize my distinguished ranking member, 
who is waiting eagerly, for 5 minutes.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. Thanks for 
recognizing me, and thanks for listening to me on the floor 
about one of the concerns about the hearing.
    These are really two distinct issues, and as the Senate had 
an opportunity to hold hearings, add comments and ask questions 
on environmental justice and the toxic release inventory, and I 
understand scheduling and committee rooms and all that stuff, 
but I don't think we do justice to both these issues by 
clomping them and putting them together.
    Having said that, here we are, and we will continue to move 
forward. We, but we owe it to our constituents and all 
Americans to be thorough, balanced, and thoughtful.
    First of all, on the H.R. 1055, the Toxic Right-to-Know 
Act, amends one sub-section of one section of the environmental 
law. It will have impact on thousands of small businesses 
across this country, many in my district, and several, I 
suspect, in every member of Congress's district.
    For example, today on the second panel we will hear 
testimony from Andy Bopp, who will be representing Baltimore 
Glass Decorators. Here is one of the products Baltimore Glass 
decorates, and I think there is some in their gift shop, too. 
This business does not have the financial or the manpower 
resources to comply with unnecessary regulations, and as you 
follow their testimony, we will see how stringent and just 
bureaucratic they are.
     I worry that small business benefits and employees rise or 
fall depending upon the layers of regulations they are 
subjected to, and it is our duty to insure that our Nation's 
small businesses are not being crippled for little to no public 
benefits.
    Highlighting this is the troublesome word of ``release.'' 
As part of this program it is extremely misleading and harmful, 
and I have got Webster's Dictionary to--and what happened in 
the passage of this law, we redefined the word, ``release,'' to 
not mean release. And I, the one thing I will do when we bring 
this bill to the floor is try to clarify what this bill 
actually does. And I would just refer, I don't have time to 
read the Webster's Dictionary, but most people when they hear, 
release, will think of stuff like emit or discharge.
    Well, according to TRI, release could mean manage, use, or 
recycle. A lot different than emitting or discharging. So that 
is problematic in the legislation just to begin with.
    Does filling out more paperwork improve the health of our 
constituents? I don't believe it does, but I am interested to 
learn more today about this proposal.
    I would also like to highlight the testimony of the first 
responder on the second panel, who a fire marshal, Mr. 
Finkelstein. Sir, first of all, I would like to thank you for 
your service, and many of us work with our local firefighters 
through the Fire Act Grant, but in his testimony I think there 
is going to be an attempt to connect TRI with emergency 
planning and responding, but since this data is 18 months old, 
any first responder who is using 18-month-old data to enter a 
facility has bigger concerns than just TRI. Because they use 
other sections, especially sections 311 and 312, for more 
appropriate use in managing emergency information and data as 
far as entry into facilities.
    The other bill on environmental justice, I think we just 
have a long way to go to understand, and the Clinton order says 
let us address this, and the real question is is the EPA moving 
in a way in which, that is part of the hearing process today, 
we will take the comments and hopefully be able to work with 
you as we are having good success in the elemental mercury 
debates. I hope that we can move both these pieces of 
legislation with like effort so that when we get to the floor, 
that we have got the big kumbayah movement, and we can move 
quicker rather than slower.
    And with that I yield back my time.
    Mr. Wynn. I thank the gentleman. I am also in favor of 
kumbayah.
    At this time I would like to recognize the vice chair of 
the committee, Representative Hilda Solis, who is also the 
sponsor of H.R. 1103, the Environmental Justice Act, and I 
would like to compliment her for her leadership on this issue 
over the years. Ms. Solis, the floor is yours.

 OPENING STATEMENT OF HON. HILDA L. SOLIS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Solis. Thank you so much, Mr. Chairman, and I thank the 
ranking member also.
    Believe it or not, this is a very historical moment. In the 
last several years that I have been serving on this committee, 
I can't recall ever having a hearing on this particular 
subject. So I applaud our chairman and thank goodness for the 
changes that occurred this last fall because otherwise we 
wouldn't be sitting here today. And I really want to thank the 
members that worked with us very closely on this and really 
salute our chairman for the work that he has done.
    This isn't just an idea that was hatched yesterday. We have 
been talking about environmental justice issues for many, many 
years, only we never had the ability to have a formal hearing 
on it. Today is that day. So I really want to say how pleased 
and thankful many, many communities, communities of color, that 
are disadvantaged, that are looking for our leadership here in 
the House of Representatives. And I have worked tirelessly 
throughout my career before I came here to the Congress, 
passing and codifying the Executive order that Clinton had 
introduced in 1994, back then, to talk about environmental 
justice.
    And I guess today what we are going to try to find out is 
how well the administration has been doing in implementing that 
Executive order and then focus on this piece of legislation, 
which I really believe will provide a better path to where we 
need to go to understand how we implement this Executive order 
that we hope to one day soon see codified. And this is the 
first beginning for that.
    And I want to just cite that there are many, many advocates 
that are supporting us on this mission today, and according to 
a recent report released by the United Church of Christ titled, 
``Toxic Waste and Race at Twenty,'' people of color make up the 
majority of those living in neighborhoods within 2 miles of the 
Nation's commercial hazardous waste facilities. These 
communities have been under attack under the policies of the 
present administration, and since 2004, the administration has 
requested at least a 25 percent cut in the environmental 
justice budget.
    And in early 2005, the EPA released a draft strategic plan 
on environmental justice, which had disregarded race, of all 
things, race, as a consideration for determining environmental 
justice, in direct contradiction to the Executive order. 
Despite reaffirming its commitment to environmental justice in 
November 2005, in this memo, the administration finalized 
weakening changes to the toxic release inventory program in 
December 2006.
    A proposed rule on locomotive emissions released this April 
failed to mention environmental justice even one time, despite 
the promises to include environmental justice considerations in 
proposed and final rules. In 2004 the IG reported that EPA had 
not consistently implemented the Executive order, and in 2006 
reported that the EPA did not know the impact, the impact of 
these policies and what they were having on environmental 
justice communities.
    In 2005, the GAO found that EPA failed to consider the 
impact of its air regulations on communities of color and 
underrepresented areas. And, during budget hearings in March, 
Acting Inspector General Roderick testified that the EPA had 
yet to establish a plan of action for implementation of 
recommendations on environmental justice.
    Absent a real commitment to environmental justice, the 
health and well being of our communities will continue to 
suffer. H.R. 1103 and H.R. 1055 will do better for the health 
of all of our communities, regardless of where you live. H.R. 
1103 will significantly, in my opinion, advance environmental 
protections in communities of color and low-income communities 
by requiring the implementation of the Executive order and the 
implementations of recommendations that go along with that in 
the IG and the GAO report.
    More than 50 organizations and Congress are on record in 
support of that Executive order, and it is time that we give 
real protections to our communities by codifying this 
legislation. We must reinforce the community right to know by 
reinstating the Toxic Release Inventory Program, a successful 
program for more than 21 years.
    And I yield back the balance of my time.
    Mr. Wynn. I thank the gentlelady, and again, compliment and 
commend her for her passion and her leadership on this issue. I 
think she is right, we wouldn't be here without her efforts, 
and I am very pleased that we are here today.
     At this time I would be happy to recognize Mr. Barrow, the 
distinguished gentlemen from Georgia.

  OPENING STATEMENT OF HON. JOHN BARROW, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Barrow. Thank you, Mr. Chairman, and I, too, want to 
commend my colleague and my hero, Ms. Solis, for her authorship 
of the Environmental Justice Act for 2007, my friend and 
colleague, Mr. Pallone. He is not my hero yet, but he is 
working on it. I appreciate your authorship of the Toxic Right-
to-Know Act.
    Mr. Chairman, thank you for calling this hearing. There is 
more than one way to repeal a law. There is more than one way 
to repeal an Executive order. There is the up and up way, out 
front and in the open where everybody can see it, and there is 
another way, by neglect. You can repeal a lot of things by 
neglect. I feel like there has been some neglect of Congress's 
responsibility in overseeing the implementation of the 
Executive order in question. There has been some neglect on the 
part of the executive branch of the Government in implementing 
the order, and this hearing is an opportunity for us to shine a 
light on that and try and get things going back in the right 
direction.
    I know a little something about this. Back in Augusta, GA, 
we have a community that is living smack dab on top of a 
brownfield. Hyde Park in Augusta is an area that is on the 
industrial edge of town, and there are people who are deeply 
tied to the land. They got their lifetime's investment in the 
homes in that area, and they don't know whether to stay, they 
don't know whether to leave, we haven't got the money to buy 
them out, a lot of folks don't want to be bought out. They are 
attached to the community and the sense of community they have 
and yet they are stuck with all of these issues.
    And I sort of feel like it is important for us to kind of 
add another element to this, try to build some support, but 
getting going on this, you realize this isn't just some vast 
environment conspiracy against poor folks.
    You know, economic development in general fuels 
environmental injustice.
    There is a penalty to pay for going first in economic 
development. In my part of the country, in Augusta, for 
example, it was an industrial crossroads. It was a commercial 
town. The railroad came. After the railroad, at the point where 
the river crosses the fall line, and there is a lot of business 
to be done, and a lot of folks did business in the old days 
without much regard to the environmental consequences. And as a 
result that area is pretty fouled up, and the economic 
development just naturally moves onto the next area. It moves 
onto the greenfield just beyond. And it leaves these 
brownfields back to fester and to swelter and indecision and 
indifference.
    The point I want to emphasize is not only is that wrong, 
not only is it unjust, it is expensive. It is wasteful. There 
are reasons that some places develop first. There are reasons 
why economic and transportation infrastructure grows there, and 
it is there. It is incredibly wasteful for us to leave areas 
basically undevelopable or unusable and to move onto the next 
greenfield. It is expensive, because it adds to the 
transportation costs for all concerned, it leaves these pockets 
of economic stagnation behind. All that adds to the cost of 
doing business for everybody.
    And so one thing I want to try and add to the mix as we 
talk about the injustice of this, is the stupidity of it. It is 
like the French diplomat said, it is worse than a sin. It is a 
mistake. And what I think we ought to recognize is cleaning up 
the mess that has been made and stopping the messing from going 
on any further is not only the right thing to do, it is the 
smart thing to do. And I hope we can focus on that and build 
support for this, because we got huge economic development 
potential right in these brownfield backyards of ours.
    And with that, Mr. Chairman, I thank you again for your 
leadership on this issue, and I yield back.
    Mr. Wynn. I thank the gentleman from Georgia.
    At this time I would recognize the gentleman from 
Pennsylvania, Mr. Murphy.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Thank you, Mr. Chairman. I was on the floor 
giving a speech, and I appreciate your indulgence in allowing 
me to be a few minutes late.
    The issue of environmental justice brings to light a 
community in my district, Jeannette, PA, once home to a 
thriving glass industry, where some years ago someone bought 
that plant, and it remains a rusted heap that is surrounded by 
an area that is becoming less and less desirable for people to 
live there.
    Low-income families face in their backyards an area that is 
soon to be high in a number of pollutants in this brownfield, 
and nothing is done about it. It is a place that I think breeds 
less economic development and poverty rather than being an 
economic engine for that embattled community.
    That is why legislation that looks at environmental justice 
is so important. We have to recognize a responsibility over 
time for those who are involved with development and 
manufacturing to make sure we are doing all we can to keep that 
environment clean, create jobs, and make sure that we 
understand the long-term legacy of responsibility to the 
communities that those are in.
    Today we are also going to be dealing with some issues 
involving the burden of paperwork, and I know that we are going 
to have people of divergent opinions on that, but it is 
important for the future of all business, small and large, that 
EPA is working with employers to making sure that we find ways 
that work towards keeping our communities and our air and our 
soil and our water clean but also working towards those, 
working with those industries so that we find ways of making 
sure we achieve that.
    The issue is to keep the air, the water, the land clean and 
not just to create more rules and not just to create mounds of 
paperwork and polluting our desks with paperwork. Let us find 
ways of solving these problems so we can really work towards 
the protection of our environment and our communities and work 
towards other jobs.
    And I yield back my time, Mr. Chairman.
    Mr. Wynn. I thank the gentleman. At this time it gives me 
great pleasure to recognize a gentleman from New Jersey, Mr. 
Pallone, who is a leader on these issues and is the author of 
H.R. 1055, Toxic Right-to-Know Protection Act.
    Mr. Pallone.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman, and I am trying to be 
good this morning but with the other side but I just want to 
commend you because the fact of the matter is that we couldn't 
have even had a hearing on these issues in the previous 
Congress, and I am not just saying that to be bad, because I 
often requested this and other hearings when I was the ranking 
member, and we weren't able to get them. In fact, it was very 
difficult, even impossible to get somebody from the EPA to come 
in and be questioned at all because for whatever reason the 
previous majority just didn't want them to be questioned. And I 
will leave it at that, but I do want to mention that, because I 
think it is important that under your leadership we are able to 
do this today.
    I wanted to focus on the Toxic Release Inventory issue and 
its relationship to environmental justice. Toxic Release 
Inventory or TRI was actually authored by my Senator, Frank 
Lautenberg, of New Jersey, and passed into law in 1986, as part 
of the Emergency Planning and Community Right-to-Know Act or 
EPCRA. After a tragic disaster at a Union Carbide facility in 
Bhopal, India, that killed thousands of people, Congress passed 
it to ensure that communities know how much the most dangerous 
industrial chemicals are being released into the air, water, 
and the ground, and for a decade it worked.
    However, in December 2006, the EPA announced final rules 
that loosen reporting requirements for the TRI. With these 
rules, the Bush administration has undermined this critical 
program in two ways. First, it eliminates detailed reports for 
more than 5,000 facilities that release up to 2,000 pounds of 
chemicals every year. And second, it eliminates detailed 
reports from nearly 2,000 facilities that manage up to 500 
pounds of chemicals known to pose some of the worst threats to 
human health, including lead and mercury.
    Now, this new rule adversely affects communities around the 
Nation. Without accurate and detailed TRI data, communities 
have less power to hold companies accountable and make informed 
decisions about how toxic chemicals are to be managed. As the 
GAO said in a recent report, and I quote, ``EPA's recent 
changes to the toxic release inventory significantly reduce the 
amount of information available to the public about toxic 
chemicals in their communities.'' The changes mean that over 
3,500 facilities nationwide, including more than 100 in my 
State, will not have to submit detailed information about their 
chemical use. In 75 counties around the country communities 
will no longer have access to detailed information about the 
status of toxic chemicals in their backyards.
    The bottom line, Mr. Chairman, is that EPA's TRI Burden 
Reduction Rule makes less information available that was 
previously available to the public. Now, this is all about 
right to know, which to me is so important. Communities have a 
right to know what kinds of chemicals are being released in 
their backyards. This information was also useful to workers 
who could be affected on the jobsite and first responders who 
need to plan for incidents at specific high-risk facilities.
    It is also an environmental justice issue. According to the 
GAO report many of the facilities that will no longer be 
reporting detailed toxic and chemical release info, are located 
in low-income and high-minority areas, and with that in mind I 
look forward to hearing from EPA today on how much analysis 
went into the agency's conclusion that the new rule would not, 
and I quote, ``disproportionately impact minority or low-income 
communities.''
    I believe that today's testimony by GAO strongly rejects 
such a notion. And in response to this ill-advised and 
potentially harmful rule and process in which it was finalized, 
myself and Congresswoman Solis, because I know she is a co-
sponsor, and she has had a lot to do with this, we introduced 
together the Toxic Right-to-Know Protection Act, and that Act 
codifies the stronger reporting requirements that were in place 
before the Bush administration weakened them late last year by 
codifying these requirements.
    Neither the current administration nor future 
administrations, because I don't trust anybody in the future 
either, could again change the guidelines without the approval 
of Congress.
    And I look forward to hearing from our witnesses about this 
issue. But thank you, again, Mr. Chairman, for even having this 
hearing. I do appreciate it.
    Mr. Wynn. Thank you, Mr. Pallone, and you were not being 
bad. I do want to, again, compliment you for your leadership on 
this particular issue. It is a critical and important thing. 
You have done a great job over the years.
    At this time I would recognize the gentleman, Mr. Terry, 
for an opening statement.
    Mr. Terry. Thank you, Mr. Chairman. I wish to waive to 
reserve enough time for questions.
    Mr. Wynn. All right. Thank you. At this time I would like 
to recognize Ms. Baldwin.

 OPENING STATEMENT OF HON. TAMMY BALDWIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Ms. Baldwin. Thank you, Mr. Chairman. I am very pleased 
that the committee is holding this hearing today on two very 
important measures, and I want to begin by commenting on H.R. 
1055 and say that I am encouraged that today we will be 
examining the EPA's decision to weaken the community right-to-
know rules.
    Congress, as we have just heard discussed, created the 
Toxic Release Inventory Program under the premise that 
communities should know what toxic chemicals are being dumped 
in their backyards. Over the years the program has also been 
effective in protecting public health and urging businesses to 
voluntarily reduce chemical releases, as no business wants to 
be on the top of an EPA polluter list.
    Given the successful nature of the program, it is really 
difficult for me to comprehend EPA's justification for altering 
the TRI rules. Yet, in changes that the EPA argues were 
necessary to ease paperwork, the agency has weakened reporting 
requirements.
    The result is a quadrupling of the amount of toxic 
pollutants that companies can release before they have to tell 
the public. In my home State of Wisconsin EPA's rule allows 113 
facilities to no longer have to notify my constituents of their 
harmful releases. Clearly, at stake is our public health, but 
EPA's rule also jeopardizes our communities' access to critical 
information used by emergency responders, academics, public 
interest groups, State agencies, and labor groups among others.
    Emergency responders, for instance, use this data to 
protect the public against chemical spills or situations where 
toxic waste is released into the water supply. Similarly, 
public interest groups use the data to push for environmental 
policy changes, and labor groups use the data to evaluate 
hazards to workers.
    TRI data is so important that the EPA should be evaluating 
ways to refine the data and make it available faster, rather 
than coming up with ways to stifle the information and protect 
the polluters. At least 305 community, environmental, faith-
based, investor, labor, public health, and science 
organizations have called upon Congress to restore toxic 
chemical reporting.
    And I am hopeful that today's hearing will highlight the 
importance of a strong TRI and demonstrate the need for passage 
of Congressman Pallone's Toxic Right-to-Know Protection Act so 
that the EPA can return to an agency that protects the public 
interest rather than the polluting businesses.
    I also want to commend Congresswoman Solis's efforts to 
bring environmental justice to those in minority and low-income 
populations who disproportionately bear the burden of our 
Nation's pollution. These pollutions face higher rates of low 
birth weight, greater risk of asthma, and increased occurrences 
of infant mortality.
    The good news is that together focused attention, increased 
research, and public access to information can all help improve 
the environment and human health conditions facing minority and 
low-income communities. In the end environmental justice is not 
just about cleaning up toxins, but rather it is about insuring 
a healthy and bright future for generations to come.
    So thank you, Mr. Chairman, for this very important and 
historic hearing, and I yield back the balance of my time.
    Mr. Wynn. Thank you very much, Ms. Baldwin. I appreciate 
your comments and your insightful remarks.
    At this time the Chair would recognize Mr. Pitts from 
Pennsylvania.
    Mr. Pitts. I will waive.
    Mr. Wynn. The gentleman has waived. Are there any further 
opening statements?
    If not, at this time the Chair would like to acknowledge a 
distinguished visitor from Maryland who has joined us for 
today's hearing. He is Division Chief Michael Love of the 
Montgomery County Fire and Rescue Service.
    Chief Love, we are delighted to have you here. In addition 
to service on Montgomery County's Fire and Rescue Service, 
Chief Love is also a member of the Local Emergency Planning 
Commission, which is the local government organization that 
receives TRI data and uses it in planning for chemical spills, 
accidents, and other emergencies.
    Thank you again for being with us.
     That concludes all opening statements. Other statements 
for the record will be accepted at this time.
    [The prepared statement of Mr. Green follows:]

  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        from the State of Texas

    Thank you, Mr. Chairman, for holding this hearing on the 
Environmental Justice Act of 2007 and the Toxic Right to Know 
Act.
    My district includes part of Houston, the fourth largest 
city in the United States, and over 65 percent of the 
population is Hispanic.
    The 29th district also includes the Port of Houston and is 
the home of many petrochemical companies.
    Both of this bills that we are discussing today are of 
importance to the 29th district.
    Houston has its fair share of environmental problems. We 
have higher than average levels of air toxics, which may be 
related to adverse health effects in the population.
    We also have our fair share of environmental waste sites. 
On September 29, an abandoned waste site on the San Jacinto 
River that is leaking toxic levels of dioxin into Galveston Bay 
was placed on the National Priority List short list.
    I have worked in conjunction with the EPA, the State of 
Texas, and the Texas Commission on Environmental Quality to 
have the site placed on the National Priority List.
    I am hopeful that we will be able to work together and 
begin cleaning up this site soon.
    I support the industry in my district. They employ many of 
my constituents. However, letting communities know what 
chemicals are being released and disposed of in their backyard 
is a responsibility these companies must uphold.
    The current Toxic Release Inventory Program reporting 
requirements, in an effort to reduce paperwork, have the 
potential to endanger communities such as my own.
    Companies that work with chemicals should be required to 
report in detail their use and disposal of these chemicals.
    Also, the EPA has a responsibility to practice 
environmental justice. Just because my constituents live close 
to where they work does not mean they should suffer from health 
effects.
    Communities that are heavily minority populated and lower 
income areas should not be subjected pollution just because of 
their race and economics.
    I support both of these bills and I urge my colleagues to 
do the same.
    Thank you Mr. Chairman.
                              ----------                              

    Mr. Wynn. We are going to move into the testimony of our 
witnesses. I think we have an excellent panel. The first panel 
is a governmental panel, and I would like to introduce them at 
this time.
    First we have Mr. Granta Nakayama, Assistant Administrator, 
Office of Enforcement and Compliance Assurance, U.S. 
Environmental Protection Agency.
    We also have Mr. Wade Najjum, Assistant Inspector General 
for Program Evaluation, Office of Inspector General, U.S. 
Environmental Protection Agency.
    We have with us also Ms. Molly O'Neill, Assistant 
Administrator, Office of Environmental Information, U.S. 
Environmental Protection Agency.
    And also we have with us Mr. Thomas, the Honorable Thomas 
Sullivan, Chief Counsel for Advocacy, Office of Advocacy, U.S. 
Small Business Administration.
    And Mr. John B. Stephenson, Director, Natural Resources and 
Environment, Government Accountability Office.
    Thank you all for coming. We are going to now have 5 
minutes opening statements from the panel, and your prepared 
testimony in full will be, which you submitted in advance, will 
be made a part of the hearing record.
    Mr. Nakayama.

   STATEMENT OF GRANTA Y. NAKAYAMA, ASSISTANT ADMINISTRATOR, 
     OFFICE OF ENFORCEMENT AND COMPLIANCE ASSURANCE, U.S. 
        ENVIRONMENTAL PROTECTION AGENCY, WASHINGTON, DC

    Mr. Nakayama. Thank you. Good morning, Chairman Wynn, 
Ranking Member Shimkus and Vice-Chair Solis, and distinguished 
members of the subcommittee. I am Granta Nakayama, Assistant 
Administrator for the Office of Enforcement and Compliance 
Assurance at the United States Environmental Protection Agency. 
My office is responsible for enforcing the Nation's 
environmental laws, as well as serving as EPA's National 
Program Manager for environmental justice.
    Thank you for inviting me to the hearing today on 
environmental justice legislation including the pending bills, 
H.R. 1055 and H.R. 1103, the Environmental Justice Act of 1007. 
I am pleased to discuss the environmental justice 
accomplishments of the agency, what we have learned from our 
efforts, and how we will continue to pursue the cause of 
environmental justice.
    Insuring environmental justice means not only protecting 
human health and the environment for everyone but also insuring 
that all people are treated fairly and given the opportunity to 
participate meaningfully in the development, implementation, 
and enforcement of environmental laws, regulations, and 
policies.
    EPA has learned that addressing environmental justice 
issues is everyone's shared responsibility. We also recognize 
that environmental justice issues are complex and multi-
faceted. While no single tool or approach along may provide the 
solution, EPA continues to believe that using the range of our 
existing statutory, regulatory, and enforcement tools for 
protecting the environment and public health is a sound 
approach. These tools coupled with building the capacity of 
communities and other stakeholders to participate meaningfully 
in the environmental decisions that affect them is an effective 
way to protect the health and environment of all our Nation's 
people and communities.
    EPA is committed to comprehensively integrating 
environmental justice considerations into its programs, 
policies, and activities. EPA is the lead for implementing 
Executive order 12898, Federal actions to address environmental 
justice in minority populations and low-income populations. 
This Executive order directs Federal agencies to make achieving 
environmental justice part of its mission. EPA works to comply 
with this Executive order and has taken significant and 
meaningful steps to integrate environmental justice into its 
mission.
    In 2005, Administrator Johnson reaffirmed EPA's commitment 
to EJ. The Administrator also identified national EJ priorities 
such as reducing asthma and elevated blood lead levels. For 
2008, the agency's national program guidance and strategic 
plans are being examined to identify activities, initiatives, 
and strategies for integrating environmental justice into 
planning and budgeting documents.
    EPA's Inspector General recently identified the need for EJ 
program reviews. The agency agreed, and we will begin 
conducting those reviews in March 2008. The EPA renewed the 
charter of the National Environmental Justice Advisory Council 
for 2 years so that EPA will continue to receive valuable 
advice and recommendations from its stakeholders.
    Since 1993, EPA has awarded more than $31 million in grants 
to more than 1,100 community organizations and others to take 
an active role in our Nation's environmental stewardship. These 
environmental justice grants promote community empowerment and 
capacity building essential to maximize meaningful 
participation in the regulatory process.
    Just yesterday EPA announced it has awarded $1 million in 
environmental justice small grants this year to 20 community-
based organizations to raise awareness and build their capacity 
to solve local environmental and public health issues.
    EPA is making significant headway on the road to 
environmental justice. In moving forward we will complete the 
Environmental Justice Program reviews so that we can 
appropriately evaluate the effectiveness of EPA's actions for 
environmental justice. We will also finalize the Environmental 
Justice Strategic Enforcement Assessment Tool, or EJ SEAT, to 
enhance the EPA Office of Enforcement and Compliance 
Assurance's ability to consistently identify potential 
environmental justice areas of concern and assist in making 
effective enforcement and compliance assurance resource 
deployment decisions. We will evaluate the tool, its strengths, 
and limitations.
    In conclusion, I believe we are on the right track and have 
the statutory authorities and needed flexibilities to identify 
problems and tailor solutions that result in improvements in 
health and environmental quality for all.
    I look forward to working with Congress to insure the 
continued progress towards this goal. I want to personally 
thank you, Chairman Wynn, for allowing me to appear before you 
on behalf of the EPA. Thank you for holding this hearing on 
this very important topic, environmental justice, and I would 
be happy to take any questions.
    [The prepared statement of Mr. Nakayama follows:]

    [GRAPHIC] [TIFF OMITTED] T5093.001
    
    [GRAPHIC] [TIFF OMITTED] T5093.002
    
    [GRAPHIC] [TIFF OMITTED] T5093.003
    
    [GRAPHIC] [TIFF OMITTED] T5093.004
    
    [GRAPHIC] [TIFF OMITTED] T5093.005
    
    [GRAPHIC] [TIFF OMITTED] T5093.006
    
    [GRAPHIC] [TIFF OMITTED] T5093.007
    
    [GRAPHIC] [TIFF OMITTED] T5093.008
    
    [GRAPHIC] [TIFF OMITTED] T5093.009
    
    Mr. Wynn. Thank you very much, Mr. Nakayama.
    Let us see. Mr. Najjum, I believe you are next.

 WADE NAJJUM, ASSISTANT INSPECTOR GENERAL, PROGRAM EVALUATION, 
  OFFICE OF INSPECTOR GENERAL, U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. Najjum. Good morning, Mr. Chairman and members of the 
subcommittee. I am Wade Najjum, Assistant Inspector General for 
Program Evaluation with the EPA Office of Inspector General. I 
am pleased to be here today to discuss the OIG's work on how 
EPA has incorporated environmental justice within its programs 
and activities.
    Over the past 5 years, the OIG has been examining EPA's 
environmental justice activities as part of our strategic plan 
to review how EPA fulfills its responsibilities. We have issued 
two reports specifically dealing with EPA implementation of 
environmental justice reviews.
    In 2006, we completed our most recent evaluation of whether 
EPA program and regional offices had performed environmental 
justice reviews of their programs, policies, and activities. We 
sought to determine: if there had been clear direction from 
EPA's senior management to perform environmental justice 
reviews; if EPA had performed these reviews; and if EPA had 
adequate guidance to conduct these reviews or if there was a 
need for additional guidance or protocols.
    We concluded that EPA program and regional offices have not 
routinely performed environmental justice reviews. Therefore, 
EPA could not determine whether its programs have a 
disproportionately high and adverse human health or 
environmental effect on minority and low-income populations. We 
were given multiple reasons why the reviews were not performed, 
including: the absence of a specific directive from EPA 
management to conduct such reviews; a belief by some program 
offices that they are not subject to the order since their 
programs do not lend themselves to reviewing impacts on 
minority and low-income populations; and uncertainty about how 
to perform the reviews.
    We made four recommendations to EPA to address these 
issues: require program and regional offices to determine where 
environmental justice reviews are needed and establish a plan 
to complete them; ensure that these reviews include a 
determination if there is a disproportionate impact on minority 
and low-income populations; develop specific review guidance; 
and designate a responsible office to compile the results of 
these reviews and make recommendations to EPA senior 
leadership. EPA agreed with our recommendations and established 
milestones for completing those actions.
    In our 2004 review, we reported on how EPA was integrating 
environmental justice into its operations. Specifically, we 
sought to determine: how EPA had implemented the order and 
integrated its concepts into regional and program offices; and 
how were environmental justice areas defined at the regional 
levels and what was the impact.
    We concluded that EPA had not fully implemented the order 
and was not consistently integrating environmental justice into 
its day-to-day operations at that time. EPA had not identified 
minority and low-income communities, or defined the term 
``disproportionately impacted.'' In the absence of 
environmental justice definitions, criteria, or standards from 
EPA, many regional and program offices individually took steps 
to implement environmental justice policies. The result was 
inconsistency in environmental justice actions across EPA 
regions and programs. Thus, how environmental justice action 
was implemented was dependent, in part, on where you lived.
    We made 12 recommendations to EPA to address the issues we 
raised. EPA disagreed with 11 of our 12 recommendations. EPA 
did agree to perform a study of program and regional office's 
funding and staffing for environmental justice to ensure that 
adequate resources were available to fully implement its 
environmental justice plans. EPA completed that study in May 
2004.
    In the interest of objectivity I should also say that since 
the issuance of our reports, EPA has taken some positive steps 
to address environmental justice issues. However, we think EPA 
recognizes that more work needs to be done, particularly in its 
efforts to integrate environmental justice into its decision 
making, planning, and budgeting processes. Also, EPA still 
needs broader guidance on environmental justice program and 
policy reviews, which EPA acknowledges is not in place.
    Thank you for the opportunity to testify before you today. 
I would be pleased to answer any questions you may have.
    [The prepared statement of Mr. Najjum follows:]

                      Statement of Wade T. Najjum

     Good morning Mr. Chairman and members of the subcommittee. 
I am Wade Najjum, Assistant Inspector General for Program 
Evaluation with the U.S. Environmental Protection Agency (EPA) 
Office of Inspector General (OIG). I am pleased to be here 
today to discuss the OIG's work on how EPA has incorporated 
environmental justice within its programs and activities. EPA 
has made some progress in these areas over the past five years. 
However, our reports show that more could be done.

                      Environmental Justice at EPA

     EPA defines environmental justice as the fair treatment 
and meaningful involvement of all people regardless of race, 
color, national origin, or income with respect to the 
development, implementation, and enforcement of environmental 
laws, regulations, and policies. Fair treatment means that no 
group of people should bear a disproportionate share of the 
negative environmental consequences resulting from industrial, 
governmental, and commercial operations or policies. Meaningful 
involvement means that: 1) people have an opportunity to 
participate in decisions about activities that may affect their 
environment and/or health; 2) the public's contribution can 
influence the regulatory agency's decision; 3) their concerns 
will be considered in the decision making process; and 4) the 
decision makers seek out and facilitate the involvement of 
those potentially affected.
     In February 1994, the President signed Executive Order 
12898 (Order) focusing Federal attention on the environmental 
and human health conditions of minority and low-income 
populations with the goal of achieving environmental protection 
for all communities. This Order directed Federal agencies to 
develop environmental justice strategies to help them address 
disproportionately high and adverse human health or 
environmental effects of their programs on minority and low-
income populations. The Order is also intended to promote 
nondiscrimination in Federal programs that affect human health 
and the environment. It aims to provide minority and low-income 
communities' access to public information and public 
participation in matters relating to human health and the 
environment. The Order established an Interagency Working Group 
on environmental justice chaired by the EPA Administrator and 
comprised of the heads of 11 departments or agencies and 
several White House offices.
     At EPA, the Office of Environmental Justice (OEJ) within 
the Office of Enforcement and Compliance Assurance (OECA) 
coordinates EPA's efforts to integrate environmental justice 
into all policies, programs, and activities. Within each 
regional office there is at least one environmental justice 
coordinator who serves as the focal point within their 
organizations and as the liaison to OEJ. Among the 
coordinator's duties are to provide policy advice and to 
develop and implement programs within their regions. There is 
no specific environmental justice statute to fund environmental 
justice activities at EPA. Consequently, OEJ performs 
activities using a general Environmental Program Management 
appropriation budget line item.

                     OIG Environmental Justice Work

     For the past 5 years, the OIG has been examining EPA's 
environmental justice activities as part of our broader 
strategic plan to review how EPA fulfills its responsibilities 
to address environmental threats and their impact on 
ecosystems, communities, and susceptible populations. We have 
issued two reports focusing on EPA's implementation of 
Executive Order 12898 requirements.

         Evaluation of EPA's Implementation of Executive Order

     In a 2004 review, we reported on how EPA was integrating 
environmental justice into its operations. Specifically, we 
sought to answer the following questions: 1) how had EPA 
implemented the Order and integrated its concepts into its 
regional and program offices; and 2) how were environmental 
justice areas defined at the regional levels and what was the 
impact.
     We concluded that EPA had not fully implemented the Order 
and was not consistently integrating environmental justice into 
its day-to-day operations at that time. EPA had not identified 
minority and low-income communities, or defined the term 
``disproportionately impacted.' Moreover, in 2001, EPA restated 
its commitment to environmental justice in a manner that did 
not emphasize minority and low-income populations which we 
believed was the intent of the Order. In the absence of 
environmental justice definitions, criteria, or standards from 
EPA, many regional and program offices individually took steps 
to implement environmental justice policies. The result was 
inconsistency in determining environmental justice communities 
across EPA regions and programs. For example, between the 
regions there was a wide array of approaches for identifying 
environmental justice communities. Thus, the implementation of 
environmental justice actions was dependent, in part, on where 
you lived.
     We made 12 recommendations to EPA to address the issues we 
raised, which are listed in Attachment A. Four key 
recommendations were: 1) reaffirm the Executive Order as a 
priority; 2) establish specific timeframes for developing 
definitions, goals, and measurements; 3) develop a 
comprehensive strategic plan; and 4) determine if adequate 
resources are being applied to implement environmental justice. 
EPA disagreed with 11 of the 12 recommendations. EPA did agree 
to perform a comprehensive study of program and regional 
offices' funding and staffing for environmental justice to 
ensure that adequate resources are available to fully implement 
its environmental justice plans. In May 2004, EPA issued its 
report entitled ``Environmental Justice Program Comprehensive 
Management Study'' conducted by Tetra Tech EM Inc.

            Evaluation of EPA Environmental Justice Reviews

     In 2006, we completed our evaluation of whether EPA 
program and regional offices have performed environmental 
justice reviews of their programs, policies, and activities as 
required by the Order. We specifically sought to determine if: 
1) there had been clear direction from EPA senior management to 
perform environmental justice reviews of EPA programs, 
policies, and activities; 2) EPA had performed environmental 
justice reviews; and 3) EPA had adequate guidance to conduct 
these reviews or if there was a need for additional directions 
or protocols.
     To determine the direction, frequency, and guidance for 
environmental justice reviews, we met with OECA, OEJ, and 
Office of Air and Radiation representatives. We then conducted 
an EPA-wide survey of each of the Deputy Assistant 
Administrators in EPA's 13 program offices and each of the 10 
Deputy Regional Administrators on their experience conducting 
environmental justice reviews of their programs, policies, and 
activities. We also asked them to describe their satisfaction 
with available guidance and instructions for conducting these 
reviews, and whether they needed additional directions or 
protocols. We did not design our survey to draw inferences or 
project results. Rather we sought to obtain descriptive 
information on implementing environmental justice at EPA.
     Our survey results showed that EPA program and regional 
offices have not routinely performed environmental justice 
reviews. Reasons for not performing these reviews included the 
absence of a specific directive from EPA management to conduct 
such reviews; a belief by some program offices that they are 
not subject to the Order since their programs do not lend 
themselves to reviewing impacts on minority and low-income 
populations; and confusion regarding how to perform the 
reviews. In addition, we found that program and regional 
offices lacked clear guidance to follow when conducting 
environmental justice reviews. Survey respondents stated that 
protocols, a framework, or additional directions would be 
useful for conducting environmental justice reviews. We 
concluded that EPA cannot determine whether its programs have a 
disproportionately high and adverse human health or 
environmental effect on minority and low-income populations 
without performing these types of reviews.
     We made four recommendations to EPA to address these 
issues. We recommended that EPA: 1) require program and 
regional offices to determine where environmental justice 
reviews are needed and establish a plan to complete them; 2) 
ensure that environmental justice reviews determine whether EPA 
programs, policies, and activities may have a 
disproportionately high and adverse health or environmental 
impact on minority and low-income populations; 3) develop 
specific environmental justice review guidance that includes 
protocols, a framework, or directions; and 4) designate a 
responsible office to compile the results of environmental 
justice reviews and make recommendations to EPA senior 
leadership. EPA agreed with our recommendations and established 
milestones for completing those actions. For example, in 
response to our third recommendation EPA convened an Agency-
wide Environmental Justice workgroup in April 2007 to begin 
developing protocols to provide guidance for conducting 
reviews. Implementation of the protocols developed is scheduled 
for March 2008.

                      Noteworthy EPA Achievements

     In the interest of objectivity I also should say that 
since the issuance of our reports, EPA has taken some steps to 
address environmental justice issues. In 2005, Administrator 
Stephen Johnson reaffirmed EPA's commitment to environmental 
justice by directing staff to establish measurable commitments 
that address environmental priorities such as: reducing asthma 
attacks, air toxics, and blood lead levels; ensuring that 
companies meet environmental laws; ensuring that fish and 
shellfish are safe to eat; and ensuring that water is safe to 
drink. EPA is also including language in the fiscal year 2008 
National Program Guidance that each headquarters program office 
should use its environmental justice action plan and EPA's 
strategic plan to identify activities, initiatives, or 
strategies that address the integration of environmental 
justice. Finally, EPA is modifying its emergency management 
procedures in the wake of Hurricane Katrina to incorporate an 
environmental justice function and staffing support in the 
EPA's Incident Command Structure so that environmental justice 
issues are addressed in a timely manner.
     These are all positive steps but EPA recognizes that more 
work needs to be done, particularly in its efforts to making 
environmental justice part of its mission by integrating 
environmental justice into its decision making, planning, and 
budgeting processes. EPA needs to be able to determine if their 
programs, policies, and actions have a disproportionate health 
or environmental impact on minority or low-income populations. 
EPA also still needs broad guidance on environmental justice 
program and policy reviews, which EPA acknowledges is not in 
place.
     One of EPA's goals is to provide an environment where all 
people enjoy the same degree of protection from environmental 
and health hazards and equal access to the decision-making 
process to maintain a healthy environment in which to live and 
work. Our work has shown that EPA still needs to do more to 
integrate environmental justice into its programs and 
activities so that it may achieve this goal.
     Thank you for the opportunity to testify before you today. 
I would be pleased to answer any questions you may have.

                              Attachment A

    Recommendations from 2004 OIG Report ``EPA Needs to 
Consistently Implement the Intent of the Executive Order on 
Environmental Justice''
    1) Issue a memorandum that reaffirms that Executive Order 
12898 is the Agency's priority and that minority and low-income 
populations that are disproportionately impacted will receive 
the intended actions of this Executive Order.
    2) Clearly define the mission of the Office of 
Environmental Justice and provide Agency staff with an 
understanding of the roles and responsibilities of the office.
    3) Establish specific time frames for the development of 
definitions, goals and measurements that will ensure that the 
1994 Executive Order is complied with in the most expeditious 
manner.
    4) Develop and articulate a clear vision on the Agency's 
approach to environmental justice. The vision should focus on 
environmental justice integration and provide objectives that 
are clear, precise, and focused on environmental results.
    5) Develop a comprehensive strategic plan for environmental 
justice. The plan should include a comprehensive mission 
statement that discusses, among other things, the Agency's 
major functions and operations, a set of outcome-related goals 
and objectives, and a description of how the Agency intends to 
achieve and monitor the goals and objectives.
    6) Provide the regions and program offices a standard and 
consistent definition for a minority and low-income community, 
with instructions on how the Agency will implement and 
operationalize environmental justice into the Agency's daily 
activities. This could be done through issuing guidance or a 
policy statement from the Administrator.
    7) Ensure that the comprehensive training program currently 
under development includes standard and consistent definitions 
of the key environmental justice concepts (i.e., low-income, 
minority, disproportionately impacted) and instructions for 
implementation.
    8) Perform a comprehensive study of program and regional 
offices' funding and staffing for environmental justice to 
ensure that adequate resources are available to fully implement 
the Agency's environmental justice plan.
    9) Develop a systematic approach to gathering accurate and 
complete information relating to environmental justice that is 
usable for assessing whether progress is being made by the 
program and regional offices.
    10) Develop a standard strategy that limits variations 
relating to Geographical Information System (GIS) applications, 
including use of census information, determination of minority 
status, income threshold, and all other criteria necessary to 
provide regions with information for environmental justice 
decisions.
    11) Require that the selected strategy for determining an 
environmental justice community is consistent for all EPA 
program and regional offices.
    12) Develop a clear and comprehensive policy on actions 
that will benefit and protect identified minority and low-
income communities and strive to include in States' Performance 
Partnership Agreements and Performance Partnership Grants.
                              ----------                              

    Mr. Wynn. Thank you very much for your testimony.
    Ms. O'Neill.

 STATEMENT OF MOLLY A. O'NEILL ASSISTANT ADMINISTRATOR, OFFICE 
  OF ENVIRONMENTAL INFORMATION, U.S. ENVIRONMENTAL PROTECTION 
                     AGENCY, WASHINGTON, DC

    Ms. O'Neill. Good morning, Mr. Chairman and distinguished 
members of the subcommittee. Thank you for the opportunity to 
testify today about the progress EPA is making in providing 
important information to communities across the Nation 
regarding our work to publish the annual toxic release 
inventory or TRI. This testimony reflects my dual roles as the 
Chief Information Officer at the U.S. EPA and as the Assistant 
Administrator of Environmental Information where the toxic 
release inventory is one of the programs that I oversee.
    Let me begin by saying I believe environmental information 
is a strategic asset as we work to protect human health and the 
environment. I believe this is important because environmental 
information underlies all decisions made by EPA and our 
partners to achieve our goals. As you know, EPA's TRI Program 
provides information on releases and waste management 
activities for nearly 650 chemicals reported from industry. 
Environmental information has many uses, and one of the most 
effective is to encourage facilities to reduce emissions or 
releases.
    The December 2006 final TRI rule expanding eligibility for 
use of short-form reporting provided important incentives for 
pollution prevention. The rule would allow companies to use a 
shorter, simpler reporting form known as Form A to provide 
required information so long as they eliminate or minimize 
releases to the environment. No facilities were excused from 
reporting under the TRI rule, and no chemicals were removed 
from the required reporting list. The only change in 
requirements is that facilities are permitted to use the short 
form if they maintain releases and total waste is below limits 
established in the rule.
    The rule is an important part of EPA's strategy to minimize 
releases of toxic chemicals across the United States. It 
rewards facilities that completely eliminate releases of the 
worst environmental substances persistent by accumulative and 
toxic chemicals to PBTs. By allowing them to use a shorter 
reporting form, provided they do not exceed 500 pounds of 
recycling energy recovery and treatment for that chemical, EPA 
believes these stringent requirements for short-form reporting 
are appropriate for PBT chemicals because of the greater 
potential for environmental harm.
    For other toxics the rule allows for short-form reporting 
for those facilities that reduce or maintain releases below 
2,000 pounds, provided their total waste management does not 
exceed 5,000 pounds. EPA believes that providing incentives to 
encourage pollution prevention and better waste management 
practices is good for the environment, good for facilities, and 
good for people who live around them.
    These limits encourage pollution prevention and should be 
given an opportunity to work. EPA does not support H.R. 1055, 
because it would eliminate the valuable incentives provided in 
the December 2006, rule before we have even had a chance to 
determine their effectiveness and could also have adverse 
resource implications to the TRI Program.
    We would not expect the effects of the December 2006, new 
incentives to be reflected in the reports for calendar year 
2006, that we are not processing. Beginning with reports for 
2007, which would be due July 1, 2008, EPA will begin to 
evaluate the effectiveness of these incentives in reducing 
releases and promoting pollution prevention.
    EPA does continue to demonstrate our commitment to public 
access to environmental information. This year we expanded TRI 
reporting of dioxin and dioxin-like chemicals, compounds, 
increasing public access to how facilities use, manage, and 
release the most toxic chemical group.
    In addition, EPA converted the entire TRI reporting system 
over to the modern industry standard classification practice to 
enhance information sharing and comparability across sectors. 
We continue to take steps to improve TRI to enhance its utility 
for local communities. We continue to get it out earlier and 
earlier to the public.
    In addition to TRI, my role as EPA's Chief Information 
Officer, I also want you to know that we are working on new and 
innovative tools and applications to deliver a new suite and a 
more comprehensive suite of environmental data to local 
communities, including the use of geo-special tools, which will 
provide easy access to detailed local information. Ultimately 
these efforts and other projects underway will provide a useful 
set of environmental information about local environments.
    On behalf of Administrator Johnson, thank you for inviting 
me to come here to speak today and to tell you our progress 
that EPA is making on providing important information to 
communities across the Nation, including TRI.
    And in particular I want to thank you for inviting me 
personally to describe my views and our views at EPA on H.R. 
1055, the Toxic Right-to-Know Protection Act.
    I would be happy to address any questions.
    [The prepared statement of Ms. O'Neill follows:]

    [GRAPHIC] [TIFF OMITTED] T5093.010
    
    [GRAPHIC] [TIFF OMITTED] T5093.011
    
    [GRAPHIC] [TIFF OMITTED] T5093.012
    
    [GRAPHIC] [TIFF OMITTED] T5093.013
    
    [GRAPHIC] [TIFF OMITTED] T5093.014
    
    [GRAPHIC] [TIFF OMITTED] T5093.015
    
    [GRAPHIC] [TIFF OMITTED] T5093.016
    
    Mr. Wynn. Thank you very much, Ms. O'Neill.
    Mr. Sullivan.

   STATEMENT OF THOMAS M. SULLIVAN, CHIEF COUNSEL, ADVOCACY, 
    OFFICE OF ADVOCACY, U.S. SMALL BUSINESS ADMINISTRATION, 
                         WASHINGTON, DC

    Mr. Sullivan. Chairman Wynn, Congressman Shimkus, and 
members of the subcommittee, thank you for giving me the 
opportunity to appear this morning.
    I am the Chief Counsel for Advocacy at the U.S. Small 
Business Administration. My office is an independent one within 
the SBA, and therefore, the comments expressed in my statement 
do not necessarily reflect the position of the administration 
or the SBA. Due to my office's independence, my statement was 
not submitted to OMB for approval.
    Small businesses have been asking for TRI paperwork burden 
relief since 1990. This hearing is actually the fifth hearing 
held by House committees on TRI reform in five consecutive 
Congresses. Five years after TRI was created, my office 
petitioned EPA to develop streamlined reporting for small 
volume chemical users.
    In 1994, EPA responded to the petition by adopting Form A, 
as Ms. O'Neill mentioned, the short form for TRI reporting. 
Adapted as a less burdensome alternative to the long form, Form 
R, the original Form A allowed companies to report their 
releases as a range instead of a specific number.
    Unfortunately, the Form A developed in 1994 was never 
utilized to its potential, owing to restrictive eligibility 
requirements subsequently imposed on the short form. Small 
business have consistently voiced their concerns to my office 
that the TRI Program imposes substantial paperwork burdens with 
little corresponding environmental benefit, especially for 
thousands of businesses that have zero discharges or emissions 
to the environment. These businesses must devote scarce time 
and resources to completing the lengthy, complex form R reports 
each year, despite the fact that they have zero discharges.
    Why is TRI paperwork burden reduction important to small 
business? Well, the reason for my office's involvement is 
simple. Small businesses are disproportionately impacted by 
Federal rules and regulations. The overall regulatory burden in 
the United States exceeds $1.1 trillion. I will repeat that. 
The burden in the United States exceeds $1.1 trillion. For 
firms employing fewer than 20 employees, the most recent 
estimate of their annual regulatory burden is $7,647 per 
employee.
    Looking specifically at compliance with Federal 
environmental rules, the difference between small and large 
firms is even more dramatic. Small firms have to spend four and 
a half times more per employee for environmental compliance 
than larger businesses do. Environmental requirements, 
including TRI paperwork, can comprise up to 72 percent of small 
manufacturers' total regulatory costs.
    EPA's reform to the TRI reporting rules allows more small 
businesses to use the short form instead of the longer Form R. 
This will save money, and it provides an incentive for 
companies to recycle chemicals instead of disposing them.
    The TRI Burden Reduction Rule will strengthen overall 
environmental compliance. I recently talked with a TRI expert 
who runs an environmental consulting firm in southeast 
Michigan. He works with small businesses on environmental 
management issues, and he was proud of the help he provided to 
a paper mill. He had worked with a paper mill to encourage them 
to recycle small amounts of mercury generated when switches and 
other process control circuits undergo maintenance in the 
mill's powerhouse.
    He explained to me that EPA's TRI reform will allow a 
number of industrial operations such as tool and die shops and 
metal stamping plants to file a Form A for the first time. It 
will also provide an incentive for other companies to recycle 
their TRI chemicals rather than disposing of them.
    The Office of Advocacy supports EPA's TRI Burden Reduction 
Rule. Although the rule reform does not go as far as some small 
businesses would prefer, my office supports EPA's December 2006 
rule. The rule demonstrates that EPA is listening to the 
concerns of small business, and EPA's reform should be a model 
for other agencies to reform their existing rules and 
regulations to reduce costs while preserving or strengthening 
regulatory objectives. H.R. 1055 prevents EPA from moving 
forward with the reforms, so my office is opposed to the 
legislation.
    Thank you for allowing me to present these views, and I 
would be happy to answer questions.
    [The prepared statement of Mr. Sullivan follows:]

    [GRAPHIC] [TIFF OMITTED] T5093.017
    
    [GRAPHIC] [TIFF OMITTED] T5093.018
    
    [GRAPHIC] [TIFF OMITTED] T5093.019
    
    [GRAPHIC] [TIFF OMITTED] T5093.020
    
    [GRAPHIC] [TIFF OMITTED] T5093.021
    
    [GRAPHIC] [TIFF OMITTED] T5093.022
    
    [GRAPHIC] [TIFF OMITTED] T5093.023
    
    [GRAPHIC] [TIFF OMITTED] T5093.024
    
    Mr. Wynn. Thank you, Mr. Sullivan.
    Mr. Stephenson.

 STATEMENT OF JOHN B. STEPHENSON, DIRECTOR, NATURAL RESOURCES 
AND ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE, WASHINGTON, 
                               DC

    Mr. Stephenson. Thank you, Mr. Chairman, Mr. Shimkus, 
members of the committee.
    I am here today to discuss two studies the GAO has 
undertaken that relate these two issues. Our first study 
examined the extent to which EPA was meeting its environmental 
justice commitment that environmental laws will not 
disproportionately impact minority and low-income communities.
    As Ms. Solis indicated, in July 2005 we issued a report to 
her that concluded that EPA in general devoted very little 
attention to environmental justice when developing new air 
rules. We made several recommendations for improvement that EPA 
has only partially responded to since we issued our report.
    For example, to its credit EPA now includes the Office of 
Environmental Justice as an ex officio member of its Regulatory 
Steering Committee, however, the Office is still not 
sufficiently involved in working groups for individuals rules. 
We believe that more specific guidance, training, and 
manageable benchmarks are needed to hold EPA officials 
accountable for achieving EJ goals.
    Our second study on the new toxic release inventory rule is 
almost complete and will result in a report later this month. 
TRI's an extremely important system as has been mentioned 
because it is EPA's mechanism for meeting the requirements of 
the Emergency Preparedness and Communities Right-to-Know Act 
for facilities to report and make public their use of toxic 
chemicals. There are currently over 23,000 facilities across 
the country that report valuable information annually on over 
600 dangerous chemicals. In developing the TRI rule we found 
that EPA did not follow its internal rule-making guidelines.
    For example, the rule pretends to reduce industry's 
reporting burden by quadrupling the threshold from 500 to 2,000 
pounds for facilities to use the shorter, less-informative Form 
A for reporting toxic chemical releases. However, EPA did not 
fully analyze the impact of the loss of chemical information on 
TRI users like States, communities, and first responders.
    EPA's internal stakeholders were in the process of 
analyzing several other burden reduction options when OMB late 
in the process suggested increasing the reporting threshold, an 
option that EPA had earlier rejected. Pressure to quickly 
implement the rule left EPA with insufficient time for a 
complete economic analysis.
    For example, electronic reporting, which has been mentioned 
today and which has shown to provide far more burden reduction 
in this rule, was missing from the analysis. Notwithstanding 
the lack of analysis, EPA published the proposed rule in the 
Federal Register and received over 120,000 comments, including 
a dozen attorney generals from California, Connecticut, 
Illinois, Iowa, Maryland, Massachusetts, New Hampshire, New 
Jersey, New Mexico, New York, Vermont, and Wisconsin opposing 
the rule because of its impact on TRI information and 
environmental justice implications.
    Mr. Chairman, we are very concerned that to achieve burden 
reduction EPA is tinkering with what has historically been a 
highly-successful program to control the use of toxic 
chemicals. EPA contends that the rule will result in only a 1 
percent loss of information, however, this is an aggregate 
estimate based on total pounds of chemicals nationwide and 
ignores the more important implications of the rule on 
individual communities.
    In fact, we estimate that the rule has the potential to 
reduce information on toxic chemical releases from over 6,600 
facilities. Moreover, a disproportionately larger number of 
these facilities are near minority and low-income communities.
    Time permitting, Mr. Chairman, I would like to, I have a 
couple of graphics. I think each of you, if you can't see the 
monitors, has a package, and it should be in front of them. To 
illustrate the impact of the TRI rule on individual 
communities.
    This uses Google Earth, which is a free software available 
to everybody and overlays EPA information on it. And what you 
are seeing in this first slide is the, indeed, the 23,000 TRI 
reporting facilities, and I know you can't count 23,000. Could 
you switch the slide? There you go. You can see that there are 
23,000 facilities, and you can see the focus of where those 
are.
    Now, this second slide shows you the 6,600 plus facilities 
that are subject to information reduction under this new rule. 
There is still quite a few facilities there. Now, you can use 
this. We are not using this interactively. These are stagnant, 
but you can actually use this to zoom in on any individual 
community, and we selected Los Angeles, but you could do this 
with any other area.
    So the next slide zooms in on which 6,600 of these 
facilities are located in and around the Los Angeles area, and 
you can see there is quite a few.
    And then finally we wanted to connect the dots between TRI 
and environmental justice by showing you the implications of 
these facilities in the Los Angeles area on low-income and 
minority communities. The cylinders represent low income 
households within a 1-mile radius of the facility. The higher 
the cylinder, the poorer the community, and the colors 
represent minority. Red colors represent 80 percent minority or 
greater. And, frankly, I think the graphic speaks for itself.
    In conclusion, Mr. Chairman, let me say that failing to 
demonstrate any burden reduction, EPA now asserts that the TRI 
rule will provide an incentive for facilities to reduce their 
toxic chemical releases. It is difficult for us to understand 
how raising the threshold for reporting would achieve that 
objective.
    Mr. Chairman, that concludes a summary of my statement. I 
will be happy to answer questions.
    [The prepared statement of Mr. Stephenson follows:]

    [GRAPHIC] [TIFF OMITTED] T5093.025
    
    [GRAPHIC] [TIFF OMITTED] T5093.026
    
    [GRAPHIC] [TIFF OMITTED] T5093.027
    
    [GRAPHIC] [TIFF OMITTED] T5093.028
    
    [GRAPHIC] [TIFF OMITTED] T5093.029
    
    [GRAPHIC] [TIFF OMITTED] T5093.030
    
    [GRAPHIC] [TIFF OMITTED] T5093.031
    
    [GRAPHIC] [TIFF OMITTED] T5093.032
    
    [GRAPHIC] [TIFF OMITTED] T5093.033
    
    [GRAPHIC] [TIFF OMITTED] T5093.034
    
    [GRAPHIC] [TIFF OMITTED] T5093.035
    
    [GRAPHIC] [TIFF OMITTED] T5093.036
    
    [GRAPHIC] [TIFF OMITTED] T5093.037
    
    [GRAPHIC] [TIFF OMITTED] T5093.038
    
    [GRAPHIC] [TIFF OMITTED] T5093.039
    
    [GRAPHIC] [TIFF OMITTED] T5093.040
    
    [GRAPHIC] [TIFF OMITTED] T5093.041
    
    [GRAPHIC] [TIFF OMITTED] T5093.042
    
    [GRAPHIC] [TIFF OMITTED] T5093.043
    
    [GRAPHIC] [TIFF OMITTED] T5093.044
    
    [GRAPHIC] [TIFF OMITTED] T5093.045
    
    [GRAPHIC] [TIFF OMITTED] T5093.046
    
    [GRAPHIC] [TIFF OMITTED] T5093.047
    
    [GRAPHIC] [TIFF OMITTED] T5093.048
    
    [GRAPHIC] [TIFF OMITTED] T5093.049
    
    [GRAPHIC] [TIFF OMITTED] T5093.050
    
    [GRAPHIC] [TIFF OMITTED] T5093.051
    
    [GRAPHIC] [TIFF OMITTED] T5093.052
    
    [GRAPHIC] [TIFF OMITTED] T5093.053
    
    Mr. Wynn. Thank you very much for your testimony. I would 
like to thank all of the witnesses.
    At this time the Chair would like to raise a few questions.
    Mr. Nakayama, about how many rulemakings does EPA engage 
in?
    Mr. Nakayama. I don't have the exact number. I am sure it 
is hundreds.
    Mr. Wynn. What percentage would you say the Office of 
Environmental Justice substantially participated in?
    Mr. Nakayama. I would say a very small fraction.
    Mr. Wynn. OK. Thank you. Is it true that some programs of 
the EPA have not incorporated environmental justice in their 
core functions?
    Mr. Nakayama. I know we are working on getting all parts of 
EPA to integrate EJ into their functions, and this fiscal year 
2008, strategic plan is moving forward.
    Mr. Wynn. So that is somewhat of a left-handed way of 
saying that, yes, in the last 13 years there are some that have 
not.
    Mr. Nakayama. I don't personally know one way or the other.
    Mr. Wynn. OK. That is fine. In the 13 years since the 
Executive order was issued, has EPA ever done a comprehensive 
review to determine whether this program or policies have a 
disproportionately high impact on minority communities, 
minority or low-income communities?
    Mr. Nakayama. We are engaged in that process now to conduct 
these EJ reviews as a result of both the IG report----
    Mr. Wynn. I guess that is also another way of saying, no, 
you haven't in the past.
    Ms. O'Neill, now, you said your basic rationale is if they 
minimize the releases, you want to allow them to use the short 
form. Is that basically your position?
    Ms. O'Neill. There is incentive to use the short form if 
they minimize or eliminate releases.
    Mr. Wynn. OK. Now, it seems to me that the environmental 
community States and everyone else really would like to 
minimize releases as well, is it your position that you 
disagree with the 23 States and the 30 public health 
organizations and the 40 labor organizations and the 200 
environmental organizations that have basically said they want 
this data notwithstanding the incentivizing that has taken 
place?
    Ms. O'Neill. I think that the States would agree that the 
first priority would be to eliminate or reduce waste as a 
priority.
    Mr. Wynn. But the States said that they didn't want this 
rule. Twenty-three States at least said they didn't want it.
    Ms. O'Neill. Some of the comments to the rule based on what 
I have seen are not entirely or the understanding of what we 
are doing. The reality of it is that each community is still 
getting information on the chemicals that are there.
    Mr. Wynn. Well, isn't it true that there would be 22,000, 
more than 22,000 less long-form reports with detailed 
information? Isn't that true?
    Ms. O'Neill. That is not true for this particular December 
26 rule. As a result of that. Actually, there were 11,000 that 
were already eligible under the previous rule. So it is an 
additional 11,000. In total you are correct.
    Mr. Wynn. In total it is 22,000?
    Ms. O'Neill. Right. I just wanted to clarify that.
    Mr. Wynn. OK. Now, you are saying, well, they are not going 
to release these toxic materials, and so you think that is a 
justification for not providing the data. But isn't it true 
that even if they don't release the toxic material, that the 
material will still be in the facility?
    Ms. O'Neill. It depends on whether it is PBT or non-PBT, 
but some will. Absolutely. Up to 500 pounds of PBTs.
    Mr. Wynn. So it would impact the employees in the facility 
even if the material were not released. Isn't that true?
    Ms. O'Neill. The facility employees should know where the 
information is and where the chemicals are.
    Mr. Wynn. Well, they wouldn't be able to get the 
information because reports are not submitted. The detailed 
reports are not submitted. Now, what about first responders and 
others outside of the facility? Even if there is no release, 
again, the toxic material is still inside. Isn't that true?
    Ms. O'Neill. That is exactly right, and that is why EPCRA 
sets up different sections of the rule so that it can address 
emergency responses different than TRI.
    Mr. Wynn. But the responders still need to be aware of that 
information.
    Let me turn to Mr. Sullivan. You are talking about 
paperwork, but isn't it true that all these are electronically-
filed reports?
    Mr. Sullivan. I don't know that the percentage that are 
filed electronically or the number that are filed in paper. I 
would ask----
    Mr. Wynn. But they could be filed electronically.
    Mr. Sullivan. The actual program that receives the reports 
could respond.
    Mr. Wynn. Now, you cited at one point $1 trillion is the 
burden, but isn't it true that the burden on an individual 
small business would only be about $900 a year?
    Mr. Sullivan. You will hear from the next testimony that 
one example of a saving is 2 days worth of paperwork for this 
rule, and there are other estimates.
    Mr. Wynn. Well, but it comes to an average of $900.
    Mr. Sullivan. EPA's estimate is $900. That is correct.
    Mr. Wynn. OK. Well, we will work with that. One final 
question.
    Now, you talked about small businesses and the implications 
of these are very small, but isn't it true that the definition 
of small business includes businesses up to 500 employees?
    Mr. Sullivan. SBA's definition of small employers includes 
businesses up to 500. That is correct.
    Mr. Wynn. So these aren't exactly Ma and Pa operations that 
are filing these reports.
    Mr. Sullivan. Mr. Chairman, Mom and Pop operations from all 
over the country have appealed to my office for over 10 years 
to get this type of reform.
    Mr. Wynn. But employees, businesses under 10 employees 
aren't included.
    Mr. Sullivan. The 10 employee threshold in the law was done 
on a risk analysis, and if you extend that same risk analysis, 
it leads to the reforms finalized in December 2006.
    Mr. Wynn. But Ma and Pa really aren't included.
    My time is up. I recognize my distinguished ranking member 
for questions at this time.
    Mr. Shimkus. Thank you, Mr. Chairman. The frustrating thing 
with me in this is we keep using the word ``release'' and we 
don't define it, and I know the chairman tried to identify. It 
would help us, it would help the minority if in the movement of 
this bill that we just properly label.
    So we could say toxic use chemical reporting, use inside a 
facility, we could say chemical reporting inside a facility, we 
could say possible toxic release inventory, what is possible to 
be released. We could say, here is a good acronym, TUMRI, toxic 
use manage and release inventory. So it identifies as not--
every person on the panel kept using the word, release, and 
what it tells the public is that we are releasing all this 
stuff. All this stuff is in the atmosphere. All this stuff for 
environmental justice is killing the people in the minority 
communities when that is not true. This is a redefinition of 
the word, release, in 1986, by Senator Lautenberg. It is not 
Webster's definition of what a release is.
    I am a simple infantrymen, southern Illinoian, rural 
person, and I think just to help address this debate we need to 
just properly define it, and that is my appeal to the people 
who really want to address this, to say if we want industry to 
report every chemical process in a facility and maybe they just 
recycle it, where there is, it is just in a cycle of 
manufacturing, then let us let them do that. Let us don't scare 
the world to say that all these things that are on this list 
are toxic releases, because they are not.
    And so every testimony that is using the word, release, 
based upon the Lautenberg language is really deceptive in this 
testimony because 99.9 percent of all Americans would not agree 
with that definition, nor would Webster's definition.
    So I would hope that it is a simple change. It would be in 
compliance with moving forward, but it is very, very 
frustrating.
    Mr. Sullivan, how does this EPA reform, not hurt local 
communities?
    Mr. Sullivan. Congressman Shimkus, when we appealed to EPA 
to reform the rule, we wanted to make sure that the same type 
of risk analysis that led to EPA Administrator Carol Browner's 
adoption of the short form transcended into this new paperwork 
burden reduction reform announced in December 2006. And when 
EPA did the analysis of moving information from Form R to Form 
A, and this was mentioned by GAO, they maintained 99 percent of 
the information. That is the same percentage requirement that 
Carol Browner used to adopt the short form.
    So when you look at specific communities and you say, well, 
is it the same environmental protections from Carol Browner 
conveyed to this new rule, the answer is yes.
    Mr. Shimkus. And we all love our first responders, and we 
want to make sure that they are protected and knowledgeable. 
How do you respond to the criticisms that this TRI reform hurts 
emergency responders?
    Mr. Sullivan. Well, first of all, I commend the committee 
for having the hearing to clear up a terrible misconception, 
and that terrible misconception is that the Toxic Release 
Inventory provide first responder information when the alarm 
goes off, they are responding to a tragedy, and they are faced 
with a life-threatening situation of either breaking down a 
door or knowing that there is an explosive chemical behind that 
door, taking the appropriate procedures. That is not what TRI 
data is for.
    In fact, to supplement Congressman Shimkus's earlier 
statement, the TRI covers about 24,000 facilities. MSDS sheets, 
which are available for employees and local firefighters and 
first responders, along with chemical inventory data, covers 
over 550,000 facilities, and it is timely information, not 
information that is over a year old like TRI data is. So I 
think that this committee deserves credit for really exposing 
terrible misinformation that the TRI data is the most important 
for first responders. That is not what the facts bear out, Mr. 
Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman, and I have 6 seconds 
left, and I will yield back.
    Mr. Wynn. Thank you. The Chair would recognize Ms. Solis 
for questions.
    Ms. Solis. Thank you, Mr. Chairman.
    My question is for Mr. Stephenson, and I wanted to ask just 
quite frankly, in your opinion, do you believe that the 
Executive order on environmental justice has been implemented 
adequately by EPA?
    Mr. Stephenson. In a nutshell, no. That is what we reported 
in 2005, and we think they are moving in the right direction. 
We think including them as an ex officio member of the steering 
committee is good, but we saw no evidence of its inclusion in 
individual rule marking.
    Ms. Solis. And you mentioned something about the current 
working groups that are coming about and that there is still a 
lack of representation of EJ representatives or stakeholders in 
those working groups. Is that correct?
    Mr. Stephenson. That is right. The only one that was held 
up oddly enough was looking at EJ implications of this very 
rule, the TRI rule.
    Ms. Solis. Which is amazing to me. I don't understand that.
    My question is the facilities that you showed up here in 
Los Angeles, what would happen in a community like East Los 
Angeles, for example, which is pointed out very clearly in your 
documentation as the hot spots here, if they didn't have to 
report? This is like the 1 percent that doesn't, that would not 
be, would not have the advantage of giving us information, and 
this is where a higher tendency of minority, low-income, and 
toxic levels are much higher.
    What would that mean to communities of color?
    Mr. Stephenson. Well, there is a misconception here. We 
never said that TRI was the first source of information for 
emergency responders. Nevertheless, they use it in overall 
planning. We have been told that by the States.
    This is a public right-to-know program, TRI, and we use 
that term ``release'' because that is the name of the program, 
Toxic Release Inventory. You are absolutely right that it is 
any facility that manages, handles, disposes of appropriately, 
nevertheless the program is called the Toxic Release Inventory.
    So the purpose of this program, the reason it has been 
highly successful is because the public has information about 
these chemicals. Individuals can go into the TRI database put 
in their ZIP Code and find out information about what is 
happening around them. We don't see burden reduction from 
raising the threshold from 500, 2,000 pounds.
    Ms. Solis. And you mentioned something, if I could just 
interrupt, that with the reporting requirements being now much 
more easily accessible through computer, that that definitely 
would possibly lower costs for businesses.
    Mr. Stephenson. Absolutely. Right now, and we think EPA is 
doing a good job integrating this information in more usable 
forms to the public, and we are disappointed that it takes 12 
months to get the data out, but that is changing.
    Ms. Solis. Yes.
    Mr. Stephenson. Right now over 95 percent of the filers use 
electronic filing, and we expect that will go to 99 percent.
    Ms. Solis. Yes.
    Mr. Stephenson. So that is where the true burden reduction 
and usefulness of this program comes, not from a rule to change 
the threshold for reporting. It is not paperwork anymore.
    Ms. Solis. Well, I think that this information is very 
timely because in the area that I do represent, which is kind 
of somewhat outlined in your graph here, the Port of Long Beach 
and Los Angeles as we know are major targets for potential 
terrorism, and if you can see in the map there, and I know the 
area. Geographically there is a lot of refineries, oil 
refineries, a lot of chemical plants, and a major thoroughfare 
for our railroad system. God forbid if something were to 
happen, and we didn't know what was available there. And this 
is where that information would be lacking if we continue to 
not see enforcement of the original legislation.
    So I am very concerned about that, and I just want to thank 
you for giving us your information.
    And I want to go next, if I can, please, to Granta 
Nakayama, and wanted to ask him with the administration's 
request to cut back on environmental justice funding, which was 
about a 30 percent cut, you mentioned earlier in your statement 
that you were giving out grants now of $1 million to community 
groups. Is it not true that during the discussion debate on the 
budget that if this, if that went through, according to the 
Bush administration, that these grant programs wouldn't even be 
there, and it was partly because Congress put the money back 
in?
    Mr. Nakayama. First of all, I want to be very clear that 
the President's budget request for the Office of Environmental 
Justice has been fairly flat over the last 5 or 6 years. There 
hasn't been much change. Congress through its generosity has 
provided an add on so that we could pursue these environmental 
justice grants. Appreciate the support of that program. We made 
great use of that money. I think it is having a big impact.
    Ms. Solis. But it would have been cut. That is my question.
    Mr. Nakayama. Well, last year we didn't get the add on, 
because he had a continuing resolution. We did not get that add 
on, and yet we took out, the administration put $895,000, 
almost $1 million, out of other EPA activities, not out of my 
office, not out of the Office of Enforcement and Compliance 
Assurance, put that money in there so we could continue this 
program.
    Ms. Solis. My next question is, did the Office of 
Environmental Justice analyze the impact of the closure on the 
Region 10 Environmental Justice Office for budget reasons prior 
to its closure?
    Mr. Nakayama. The Region 10 Environmental Justice Office 
wasn't closed. What they did is they reorganized and pulled the 
environmental justice function out of the administration and 
resource management function and put it in a line operation. In 
other words, the real, they put it in the actual line 
organization that regulates the environmental activities in 
region 10. And what that did is I think it produced a much more 
active and much more effective environmental justice function 
in region 10.
    Ms. Solis. One of the other questions I have is for our 
witness, Mr. Sullivan. You mentioned that the cost to small 
business given reporting of these chemicals is about a 72 
percent burden or something like that to that effect. How do 
you quantify that with TRI? How do you quantify that? Please 
explain that to me.
    Mr. Sullivan. Of course. Every 2 or 3 years my office hires 
an outside contractor to research regulatory burden with the 
attempt of trying to figure out whether there is a 
disproportionality of small versus large, because when we work 
with OSHA and EPA and IRS and Department of Transportation, the 
idea of our involvement and encouraging agency sensitivity to 
small firms is to level that playing field.
    Ms. Solis. But there were a lot of other regulatory 
mechanisms in place where the Government actually provides 
assistance for cleanup, the Underground Storage Tank Program as 
an example. That isn't a direct burden necessarily placed on 
small businesses.
    Mr. Wynn. The gentle lady's time has expired.
    Ms. Solis. We can submit. Thank you.
    Mr. Wynn. We are going to try to get one more line of 
questioning before recessing to vote.
    Mr. Murphy of Pennsylvania.
    Mr. Murphy. Thank you, Mr. Chairman.
    A quick question for the EPA here. Would the OSHA worker 
safety requirements apply in any plant that has to report and 
more specifically, does the TRI impact the OSHA safety 
requirements for workers?
    Ms. O'Neill. Assuming that is for me.
    Mr. Murphy. Yes.
    Ms. O'Neill. No, it does not impact.
    Mr. Murphy. Not at all?
    Ms. O'Neill. No.
    Mr. Murphy. OSHA standards are separate here?
    Ms. O'Neill. Yes, they are.
    Mr. Murphy. OK. That is an important thing. I may have some 
other follow up I want to use on that later on.
    I am going to yield to the ranking member, Mr. Shimkus, the 
remainder of my time.
    Mr. Shimkus. I thank you. Chairman Barton, I mean, ranking 
member, Joe, do you want to ask a question because we are going 
to be----
    Mr. Barton. No.
    Mr. Shimkus. All right. Let me go to Ms. O'Neill. Does TRI 
set pollution limits for permits?
    Ms. O'Neill. No.
    Mr. Shimkus. Does TRI set environmental health standards?
    Ms. O'Neill. No, it does not.
    Mr. Shimkus. Is it anything more than a reporting program?
    Ms. O'Neill. It is a reporting program. Yes.
    Mr. Shimkus. Is anyone newly exempted from TRI reporting 
that previously had to file a report?
    Ms. O'Neill. No, they are not.
    Mr. Shimkus. Were any chemicals that previously had to be 
reported removed from the list of reportable chemicals?
    Ms. O'Neill. No, they were not.
    Mr. Shimkus. How current is TRI data?
    Ms. O'Neill. By the time it is published, a year and a half 
old.
    Mr. Shimkus. Eighteen months.
    Ms. O'Neill. Eighteen months. We are working on that.
    Mr. Shimkus. All right. Is EPA prevented from getting 
additional data from reporting entities under TRI regulations?
    Ms. O'Neill. No.
    Mr. Shimkus. OK. And for my last opportunity, I am still 
going to be lobbying for a change in the title. I got 
corrected. It wasn't the 1986, Act. The 1986, Act actually 
defined release as release. it was the 1990, changes that added 
all this other stuff, so if you all want to submit to me 
additional terminology that would adequately define what this 
program is, I think the committee would be happy to receive it. 
I would, and we would, maybe if we move forward, properly 
define what we actually are trying to do here.
    And with that, Mr. Chairman, I yield back my time.
    Mr. Wynn. Thank you. The subcommittee's going to stand in 
recess until the conclusion of this series of votes. We are 
going to reconvene 5 minutes after the conclusion of the last 
vote. Thank you.
    [Recess.]
    Mr. Wynn. The subcommittee will reconvene. At this point we 
are going to proceed directly with questions from Mr. Barrow of 
Georgia.
    Mr. Barrow. Thank you, Mr. Chairman.
    I hear, and I can relate to Mr. Shimkus's point about how 
the toxic release inventory is sort of misleading nomenclature. 
I guess instead of TRI it might be best for us to rename it 
TMI, toxic management index, but TMI also means too much 
information. Some folks don't want us to have enough 
information.
    So I want to focus in on that concern of mine. I may agree 
with him that the use of the word, release, ain't Webster's 
definition of the word, release, but I will see him Webster's 
definition of release and raise him Webster's definition of 
small business, because I think the definition of small 
business that works for some purposes. It doesn't necessary 
apply in this context here.
    And you can think about something without thinking about 
the things which it relates. You have the quality of being 
either a good Congressional staffer or a good lawyer, but I 
want to talk about small business in a more practical sense, 
because I hear Mr. Sullivan's point. He is right. You know, 
little Mom and Pop outfits is one thing but 500 person, 
employees, especially when you are going to outsource so much 
of your stuff through contractors, who knows how that can be 
done.
    I am intrigued, though, and I want to pick up on his point 
about the so-called trillion dollar burden we are imposing on 
business in this country, and I can relate to that, but I 
wonder if we think about what the cost of the compliance regime 
in this country would be if it wasn't on the honor system, 
people investigating themselves, but if we had a shown-up 
police force that actually did the monitoring, came on the 
premises and monitored. Came on the premises and recorded, came 
on the premises and did the reporting. If we had third-party 
verification rather than the self-reporting regime we have, I 
would rather imagine that burden would be a great deal bigger.
    Which leads me to my question. How is range reporting going 
to lower that trillion dollar burden in a substantial way if 
you still have the burden of knowing and determining yourself 
through monitoring and assessment and recording and reporting 
to yourself, you still have the burden of determining exactly 
how much you are managing, how is it going to lower the cost if 
you just go ahead, to report it in broad ranges? I can tell you 
about range reporting. I have got an income that is a whole lot 
bigger than something I don't recognize. The range reporting 
regime we have got for Congressional income is something that I 
can't relate to at all, bears no relation to my real-life 
circumstances.
    And what I am getting at is if you got to know precisely 
how much you are managing and or releasing in order to be able 
to validly comply with the oath you got to take when you fill 
out the short form, just like you got to fill out that oath to 
fill out the long form, if you got to know down to the jot and 
tiddle how much you are managing, how much you are producing, 
how much you are handling in order to fill out a range report, 
why not go ahead and submit the precise report? Why not go 
ahead and say how much of that trillion dollar burden are we 
going to relieve by them, by forcing the small businesses and 
the medium sized and all to know precisely how much they are 
handled but not tell us, to keep that information secret.
    When you add to the fact that you are creating a tremendous 
incentive for folks to fudge a little bit. The honor system 
works better, I think, when you require people to be precise, 
but here you are actually inviting people to be vague and 
general in the reporting. Aren't you going to be inviting 
people to be vague and general in their ascertainment and their 
monitoring?
     I am concerned about that. Who can tell me how it is going 
to lower the cost and how much it is going to lower the cost if 
you still got to know and we are still imposing the burden of 
finding out and determining to your own satisfaction so you can 
take that oath, just exactly how much stuff you are generating.
    Mr. Sullivan, you want to try?
    Mr. Sullivan. I would love to try to respond to the 
Congressman.
    Mr. Barrow. Since I took most of my time leading up to 
this, I want you to be quick.
    Mr. Sullivan. First of all, we are in agreement about the 
honor system. I think that really the crux of EPA's reform is 
to incentivize the honor system.
    Mr. Barrow. Am I correct in understanding, though, that the 
rule still requires the managers to know and to monitor and 
determine exact, precisely, for them to know exactly how much 
it is, but we are still going to require them only to report it 
in general terms? And that is somehow going to incentivize them 
to produce less?
    Mr. Sullivan. If I may fully respond to the Congressman's 
question, I would like to try and point out that a small firm 
with 15 employees that wants to manufacture the brass for this 
distinguished hearing room is given a choice of making sure as 
a start up do we act responsibly, and there are a number of 
reasons why that person would want to act responsibly and 
manage the alloy responsibly so that the amount, the small 
amount of lead that is in there does not leave this facility, 
is not emitted or discharged.
    That is what is the incentive based in this EPA's reform. 
That is in sharp contrast to the old system that doesn't 
recognize this incredible innovator and entrepreneur who wants 
to start a domestic manufacturing of brass and says it doesn't 
matter if you send this outside of your facility or you have 
legally permitted emissions and discharges, because you are 
going to have to fill out the same long form anyway.
    So filling out the small form----
    Mr. Barrow. It seems to me that if we are going to require 
them to know what is in the long form and to determine what is 
in the long form, it is not that much weight of a burden for 
them to tell us what they already know, what they are already 
forced to know.
    Mr. Sullivan. We respectfully disagree. Any burden 
reduction is important in small business.
    Mr. Barrow. Mr. Najjum, in the 2 seconds I have, I had 
remaining, I want to ask you, you heard me talk about the 
situation in Augusta. Would your folks be willing to come down 
there and help us look into the situation at places like Hyde 
Park? Because we have got a community that is literally 
trapped. They can't, do they stay, do they go, and we need to 
bring the resources to bear, to help them evaluate whether or 
not staying is a viable option and how to deal with the unrest 
and the anxiety and the uncertainty of the folks who want to 
stay but also want to make sure that their neighborhoods are 
clean.
    Can you do something about that? Can you come down and look 
at Hyde Park?
    Mr. Najjum. We can talk with your staff about it, and if 
that means going down to look and see if there is something the 
IG can do, certainly.
    Mr. Barrow. Thank you.
    Mr. Wynn. Thank you, Mr. Barrow.
    At this time the Chair would recognize Mr. Pallone, sponsor 
of the TRI bill.
    Mr. Pallone. Thank you. I am going to try to get in a 
question or two about TRI, and then I want to ask an 
environmental justice question.
     Ms. O'Neill, in the GAO report they specifically say at 
one point here that the EPA's TRI burden reduction rule will 
reduce the amount of information about toxic chemical releases 
previously available to the public, and then it says that taken 
by facility some 3,500 facilities no longer have to report any 
quantitative information about their chemical use and releases 
to the TRI.
    With regard to EPA's assertion the critical information 
would be, would not be lost. The agency estimates that less 
than 1 percent of the total pounds of chemical releases would 
on longer be reported, however, we found the impact on data 
available to many communities could be more significant than 
EPA's National totals indicate, particularly at the local 
level.
    Do you disagree with any of those things?
    Ms. O'Neill. I disagree that communities will not be 
getting information. They will be getting information, and they 
can assume, because it is range related.
    Mr. Pallone. But they are saying there is going to be less 
information and that a lot of facilities won't be providing any 
information. Do you agree with that?
    Ms. O'Neill. Ninety-nine percent of the data will still be 
available. There will be some cases where it will be less data, 
but the most important data is available to the community and 
which is what chemical is being managed there, and that is the 
most important thing. And there is a whole suite of other 
information available to local communities. I think it is 
really important that we say that TRI is one set of data.
    Mr. Pallone. OK.
    Ms. O'Neill. And we really need to get, put that in context 
with other environmental data out there that I think is equally 
as important to the communities.
    Mr. Pallone. See, my problem is, and I will be honest with 
you, and I am not trying to denigrate you in any way, the whole 
notion of right-to-know in my opinion, I am only speaking for 
myself, is based on the idea that we can't trust industry to do 
the right thing, we can't even trust agencies and the 
Government, whether it be the Federal or the State or even 
Congress to do the right thing. And the best thing is to have 
transparency, throw everything out there as much as possible 
because the public will be, will react and take on whoever has 
to be taken on because we can't trust the industry or the 
Government to do it.
    So when you say that by raising the threshold you provide 
this incentive, you create an incentive for pollution 
prevention, it kind of goes against the whole philosophy of the 
right to know because you are saying, well, we will incentivize 
the companies or the potential polluter, if you will, and 
provide theoretically less information to the public.
    Well, the whole premise of the right-to-know is that we 
need to incentivize the public, not the potential polluter 
because we can't trust the company or the Government to do the 
right thing.
    I know that Mr. Stephenson at one point, how does raising 
the threshold achieve the objective of less toxic releases, I 
don't see it. So let me just ask you one thing.
    In proposing the new rule did the EPA conduct any studies 
on reporting reductions, creating incentives for pollution 
prevention? Prior to the new rule did the EPA conduct any 
economic analysis demonstrating an incentive affect with 
reduced reporting?
    In other words, you state that the EPA is working to 
determine the effectiveness of these incentives, but shouldn't 
they have determined the effectiveness of those incentives 
before changing the rule rather than hoping that this incentive 
is going to work? I don't, it doesn't seem to me you have 
enough evidence that the incentive works.
    Ms. O'Neill. Well, first of all, EPA did do a lot of 
analysis. They did economic analysis, they looked at a number 
of chemicals that might be affected. We looked at by ZIP Code 
communities that might be affected. We looked at the number 
forms that might switch over. So there was a lot of analysis 
that was put in this. There was discussions, it is my 
understanding there was discussions in terms of do companies if 
they have this opportunity, would they have incentive? I don't 
know in terms of analysis----
    Mr. Pallone. Do you really have any evidence? I have to 
ask, I want to go to one more question unrelated, but do you 
really have any evidence that the incentive will work?
    Ms. O'Neill. In terms of the incentive?
    Mr. Pallone. Yes.
    Ms. O'Neill. I will have to get back to you, quite frankly, 
to see what studies are there, but we can get back to you on 
that.
    Mr. Pallone. All right. I would appreciate that.
    I wanted to ask the Inspector General one question. I had a 
case of environmental, what I considered environmental racism. 
You may not be familiar with it. With the Ringwood Superfund 
Site in New Jersey, and this was a site where it was taken off 
the Superfund list, and myself and my two Senators made an 
issue of the fact that we didn't think there was proper 
cleanup, that we didn't think that the residents were properly 
informed about what was going on. We asked the IG to look into 
it from an environmental racism point of view because it was 
primarily a Native American community.
    The IG, thankfully, came back and said you have got to put 
this back on the Superfund list, you have got to do a more 
thorough cleanup, you didn't do enough to inform the residents 
about this, and all that happened. It is back on the list, a 
more thorough cleanup is being done. They are out there doing 
more public information hearings.
    But they said that there was no evidence that the reason 
this happened, all these bad things happened was because of 
social, cultural, or environmental ethnic reasons. And I guess 
my question is how do we prove that? This was a case of total 
negligence. They didn't do what they were supposed to do, and I 
believe it was because it was a Native American community. But 
it is hard to say, to pinpoint evidence, because they didn't do 
what they were supposed to do. They didn't have the public 
meetings, they didn't have, they didn't do the proper cleanup. 
I don't think anybody was stepping forward to say, we didn't do 
this because you were Native American.
    So I just question that evidentiary requirement. What do 
you require to show that the reason all these bad things 
happened and need to be corrected was related to the fact that 
these were Native Americans? How, what is the evidentiary 
basis? They said there is no evidence, but there is not much 
evidence of anything because they didn't do what they were 
supposed to do.
    Mr. Najjum. I understand the question and the concern, 
Congressman. I understand your frustration, but when we go as 
an IG looking for an audit or an evaluation, we have to have 
evidence and various ways to get it. We went through, in the 
case of Ringwood, yards of e-mails and documentation, anything 
that we could find that would show an indication or evidence 
that the actions or lack there of were based on the Native 
American population.
    Mr. Pallone. In other words, you have to have somebody 
actually saying that we didn't do this or we were negligent or 
we didn't report to these people because they are Native 
American in order for you to come to that conclusion? Nobody is 
going to say that.
    Mr. Najjum. Sometimes they do, sir. When you are going back 
looking through the records sometimes there are indications or 
there would be evidence that actions were taken or not taken in 
the official documents and also in the e-mails and other things 
that go along with that, that would show that people were 
making, or taking actions based on that. But short of that, 
yes, it is very difficult for an IG to look at something 
without comparing it to something else and say in nine out of 
10 cases they did this, and in this one case they did that.
    But then we would still be ascribing a particular motive to 
that, which may or may not be it. That is the problem we face, 
so when we say there was no evidence, we are not coming to a 
conclusion that it happened or it didn't happen. What we are 
saying is we can't prove that without evidence.
    Mr. Pallone. Well, I am going to, I know my time is up, but 
I am going to follow up if I could, Mr. Chairman, with some 
questions on this, because I really believe that more needs to 
be done to look at the cause, whether this really was an 
environmental justice issue.
    But I am sorry. Thank you. Thank you for letting me go over 
a little bit.
    Mr. Wynn. At this time the Chair would recognize Mrs. Capps 
for questions.
    Mrs. Capps. Thank you. I have three people I would like to 
question in this very short time period.
    A brief question, Mr. Nakayama, during the hearing you 
stated that the EPA Office of Environmental Justice has 
participated in very few agency rulemaking efforts.
    Mr. Nakayama. That is true, because we depend on----
    Mrs. Capps. Let me ask you the question. If EPA were about 
to develop a rule that on its face would apply primarily to 
minority, urban, low-income communities, wouldn't that be 
exactly the kind of rule that your Office of Environmental 
Justice should be actively involved in in order to insure that 
EJ impacts are addressed?
    Mr. Nakayama. We are trying to integrate environmental 
justice----
    Mrs. Capps. You believe you should be involved in those 
kind of----
    Mr. Nakayama. I believe the environmental justice 
activities impacts should be considered during the rulemaking. 
Now, we take the position that really we need to build the 
capability of the program office that is developing the rule so 
that they need to take the lead and conduct that EJ analysis, 
because they have special expertise, for example, on air rule, 
they may have expertise of the demographics, their air 
modeling.
    Mrs. Capps. So you don't believe you should be actively 
part of the rulemaking.
    Mr. Nakayama. We should be involved, but the primarily 
lead, we are trying to develop the capability to have the 
program office be the lead.
    Mrs. Capps. All right. Let me turn to Mrs. O'Neill, and 
this will take a little bit of a narrative because it is a 
company in my district that has been reporting its ammonia 
release data to TRI.
    As you know, this is a vegetable company in Santa Maria, 
CA, I happen to represent. I am very happy to. As you know, 
exposure to ammonia can irritate the skin, eyes, and 
respiratory system. Extreme exposure may cause death. The 
company's trend line on TRI starting in 1989, has been to 
reduce its ammonia releases year after year. In 1989, the 
company released 14,000 pounds of ammonia. It is now down to 
5,400 in the last report. This shows, in my opinion, that TRI 
is working, because it is motivating a company like Pick Sweet 
to lower its releases. And it is successful and has something 
to brag about as it is doing that.
    What I am concerned about is companies like this dropping 
out of detailed reporting. Requiring public disclosure provides 
a powerful incentive for facilities to continue to decrease 
toxic releases, provides community residents and first 
responders with vital information in cases of accidental 
releases, in cases of anything happening on the site. The TRI 
rule as proposed would have allowed this company to stop 
providing detailed reports to local emergency planning 
commissions.
    If it weren't for the changes to the proposed rule, would 
this company have been required to file detailed reports and 
provide that information to the local first responders? They 
were only 400 pounds away from the 5,000-pound disclosure 
threshold, and if they had gotten below that and didn't have to 
report it all, the public health people would not have known 
that there was 4,500 pounds of release.
    I would like your reaction.
    Ms. O'Neill. Well, again, on the Emergency Right-to-Know 
Act, the TRI report for EPCRA is broken out into several 
different sections. So under this we are not affecting the 
section for emergency planners at all.
    Mrs. Capps. No matter what the level?
    Ms. O'Neill. No matter what the level. This is just for TRI 
reporting. So EPCRA has several sections in it. OK. So some 
emergency responders use the TRI reports as supplemental 
information, and in that case they will still understand, in 
this particular case they will still have an understanding of 
what the chemicals of concern are there. But they rely on the 
different EPCRA section for all the hazardous materials that 
are there and their locations. So I just want to point that 
out.
    Mrs. Capps. Right. And so we want, I am saying wouldn't, 
shouldn't that continue no matter what the release so that 
they----
    Ms. O'Neill. It does continue for emergency response. What, 
you are talking about two different----
    Mrs. Capps. For emergency response it does?
    Ms. O'Neill. Well, this, the final rule does not affect 
EPCRA associated with emergency response reporting. OK. So what 
you are talking about is the TRI reports where the, for the 
impact for the final rule. And so depending on the type of 
chemical, and I don't have a list in front of me, I am not sure 
if they would meet the threshold. I don't know what else they 
have in their waste management. So they might have had to go 
further down. They might not have been 400 pounds.
    Mrs. Capps. They wouldn't have to report after they got 
below a certain----
    Ms. O'Neill. Well, it is a little bit more complicated than 
that because it is 5,000 for everything but there is a cap on 
the actual type of management and releases, which is 2,000 
pounds. So it may, it actually may incentivize them to go down 
even further. It may incentivize them.
    Mrs. Capps. Well, is there a way to find that out? I would 
like to follow up with you because----
    Ms. O'Neill. If you, yes, if you could submit the question 
so I know what the particular chemical is and the facility, it 
might be a lot easier to get back to you.
    Mrs. Capps. I will.
    I am thinking about first responders to an incident there 
to any kind of incident in the public where they need to have 
some way of knowing what they are walking into.
    Ms. O'Neill. Right, and again, what, the final rule is not 
for section 312 of EPCRA, which is the primary source of 
information for first responders.
    Mrs. Capps. Thank you. I just, I hope, may I have an extra 
few seconds to ask, I would like to get Mr. Stephenson to be 
able to comment on some of these incentives I have been talking 
about.
    The reporting and disclosure requirements in TRI I believe 
myself are very important incentives. Data is, for this company 
supports that conclusion. They worked hard to get their 
releases down. Other than the release of ammonia and accidents 
do happen, they are heading in the right direction. Releases 
were going down.
    What, I want your response if I could ask indulgence of the 
Chair, to----
    Mr. Stephenson. That is our point exactly. If you increase 
the threshold for reporting from 500 to 2,000 you are de-
incentivizing them to go much below 2,000. So, if there is no 
burden reduction, why not keep the rule the way it was at 500 
pounds? We think that will provide the incentives necessary to 
keep----
    Mrs. Capps. Bring it all the way down.
    Mr. Stephenson. Bring it all the way down.
    Mrs. Capps. Thank you.
    Mr. Wynn. I would like to thank all the witnesses on this 
panel first for your testimony but also for your patience. I 
know we had a pretty considerable break. We appreciate your 
presence here, and as I said, members may be submitting written 
questions.
    Thank you very much.
    At this time I would like to call forth our second panel.
    While they are coming up, I would like to ask unanimous 
consent that two documents be inserted in the record. The first 
is a March 6, 2007, letter to the Honorable John Dingell and 
the Honorable Joe Barton signed by 40 individuals and public 
interest organizations expressing support for the Environmental 
Justice Act of 2007, and the second is a September 28, 2007, 
Dear Representative letter from 307 organizations urging 
support for H.R. 1055, the Toxic Right-to-Know Protection Act.
    Mr. Shimkus. Mr. Chairman.
    Mr. Wynn. Yes.
    Mr. Shimkus. I think I am being drafted a unanimous consent 
as we speak.
    Mr. Wynn. Well, what I would like to do if there are no 
objections, the two letters that I have just referenced will be 
submitted to the record, and if at some point you would like to 
introduce or make a unanimous consent request, the Chair will 
certainly entertain that.
    Hearing no objections the two items that are mentioned will 
be entered into the record.
    Mr. Wynn. I would like to welcome our second panel and 
introduce them to you.
    First we have Mr. Hilary O. Shelton, director, National 
Association for the Advancement of Colored People, Washington 
Bureau.
    Second we have Dr. Robert Bullard, Ware professor, 
Department of Sociology, director, Environmental Justice 
Resource Center, Clark Atlanta University.
    Third we have Mr. Jose Bravo, executive director, Just 
Transition Alliance on behalf of the Communities for a Better 
Environment.
    Fourth, Mr. Andrew Bopp, director of public affairs, 
Society of Glass and Ceramic Decorators.
    Fifth, Mr. Alan Finkelstein, assistant fire marshal, 
Strongsville Fire and Emergency Services.
    And last but certainly not least Ms. Nancy Wittenberg, 
assistant commissioner, New Jersey Department of Environmental 
Protection.
    Again, I would like to welcome you, offer you 5 minutes 
each for your statements. Your full prepared testimony will, of 
course, be entered into the record.
    Mr. Shelton.

STATEMENT OF HILARY O. SHELTON, DIRECTOR, NATIONAL ASSOCIATION 
   FOR THE ADVANCEMENT OF COLORED PEOPLE, WASHINGTON BUREAU, 
                         WASHINGTON, DC

    Mr. Shelton. Good morning, Chairman Wynn and members of the 
subcommittee. I thank you for the opportunity this morning to 
testify before you.
    As you mentioned, my name is Hilary Shelton, and I am the 
director of the Washington Bureau of the National Association 
for the Advancement of Colored People. I have been invited here 
today to discuss environmental justice and communities' rights 
to know.
    Sadly, more than 40 years after the enactment of the Civil 
Rights Act of 1964, and the Fair Housing Act of 1968, we are 
still a much too segregated society. Centuries of legal 
segregation and Jim Crow and continuing America in which the 
amount of education received and the salary you earn is 
determined in a large part, unfortunately, by the color of your 
skin. And as a result, Americans still living in communities 
marked by concentrations of people who look alike. Even sadder, 
it is communities of color, neighborhoods with large 
concentrations of racial and ethnic minority Americans which 
bear a disproportionate share of the Nation's air, water, and 
toxic waste pollution problems. And since the places where 
people live and work have an enormous impact on their health, 
this disproportionate exposure to pollution leads to a more 
racial and ethnic minority Americans suffering from ill health.
    And perhaps the saddest part of all this is that the 
Federal Government has a proven track record of being less 
responsive to the needs of communities if color when pollution 
is a problem. As a seminal study in the National Law Journal in 
1992, stated, there is a, ``racial divide in the way the United 
States Government cleans up toxic waste sites and punishes 
polluters. White communities see faster action, better results, 
and stiffer penalties than communities where blacks, Hispanics, 
and other racial minorities live.''
    There have been several conclusive studies that 
demonstrate, beyond a shadow of a doubt, that communities of 
color are disproportionately targeted by polluters. As the 
United Church of Christ, ``Toxic Wastes and Race in Twenty, 
1987-2007,'' concluded, race is the most significant 
independent predictor of commercial hazardous waste facilities 
locations. In fact, a December 2, 2005, report by the 
Associated Press reported that 79 percent of African-Americans 
live in polluted neighborhoods.
    So what is the impact and cost of these disparities to 
communities of color? Perhaps most importantly it has been 
effectively argued that disparities in pollution are a leading 
cause of health disparities among America's populations. Many 
of the principle causes of death in the United States today, 
that is cancer, chronic lung disease, and diabetes, have 
significant environmental causes. Furthermore, the 
environmental causes of non-lethal conditions, including birth 
defects, asthma, learning disabilities, and nervous system 
disorders, are also well documented.
    The NAACP recognizes that one of the major hurdles facing 
this committee, as well as the Federal Government, is the fact 
that many of the zoning laws and regulations which determine 
who is exposed to hazardous pollution are made at the local 
level. This, however, does not and should not absolve the 
Federal Government from taking action to try to mitigate 
environmental injustices and help communities help themselves.
    The NAACP strongly supports the two bills that are the 
subject of today's hearings; H.R. 1103, the Environmental 
Justice Act of 2007, and H.R. 1055, the Toxic Right-to-Know 
Protection Act. If enacted, these bills will provide 
communities with powerful tools in their struggle against 
pollutants. By providing communities with details about the 
quantities and quality of the pollution in their air, water, 
and soil, they can make informed decisions and demands on their 
elected officials. An informed community is an empowered 
community.
    In my written testimony I elaborate on why the NAACP feels 
this legislation is necessary and important. For the record, I 
have also included in my testimony an excerpt from this month's 
Crisis Magazine, the magazine of the NAACP. The cover story of 
the July-August edition is on environmental justice, and within 
this article are several good examples of individuals and 
communities who have fought against polluters and pollution.
    I would again like to thank Chairman Wynn and Congresswoman 
Solis, Congressman Pallone and the other members of this 
committee for all of your efforts on this important issue.
    I would also like to thank Leslie Fields of the Sierra 
Club, Environmental Justice Department, for her assistance in 
preparing this statement, as well as the input of the group 
called Advocates for the Environmental Human Rights.
    With that I welcome your questions.
    [The prepared statement of Mr. Shelton follows:]

                      Statement of Hilary Shelton

    Good morning Chairman Wynn and members of the subcommittee. 
I thank you for the opportunity to testify before you today.
    My name is Hilary Shelton, and I am the Director of the 
Washington Bureau of the National Association for the 
Advancement of Colored People, the NAACP. The Washington Bureau 
is the public policy advocacy branch of our Nation's oldest, 
largest and most widely recognized grassroots civil rights 
organization. I have been invited here today to discuss 
environmental justice and communities' right to know.
    It is sad but true that today, more than forty years after 
Dr. King spoke to us in his ``I Have a Dream'' speech of one 
nation in which we all lived together under God, and despite 
the Civil Rights Act of 1964, the Voting Rights Act of 1965 and 
the Fair Housing Act of 1967 we are still a much too segregated 
society. Centuries of legal segregation and Jim Crow and a 
continuing America in which the amount of education you receive 
and the salary you make is determined in large part by the 
color of your skin have resulted in many Americans still living 
in communities marked by a concentration of people who look 
alike.
    Even sadder, it is communities of color, neighborhoods with 
large concentrations of racial and ethnic minority Americans, 
which bear a disproportionate share of the Nation's air, water 
and toxic waste pollution problems. And since the places where 
people live and work have an enormous impact on their health, 
this disproportionate exposure to pollution leads to more 
racial and ethnic minority Americans suffering from ill 
health--both physical and mental.
    And perhaps the saddest part of this all is that the 
Government, our American Government, has a proven track record 
of being less responsive to the needs of communities of color 
when pollution is a problem. As a seminal study on the National 
Law Journal in 1992 stated, there is a ``...racial divide in 
the way the United States Government cleans up toxic waste 
sites and punishes polluters. White communities see faster 
action, better results and stiffer penalties than communities 
where Blacks, Hispanics and other minorities live.''
    There have been several conclusive studies that 
demonstrate, beyond a shadow of a doubt, that communities of 
color are disproportionately targeted by polluters. Perhaps the 
most famous of these studies, by the United Church of Christ, 
is the 1987 study Toxic Wastes and Race in the United States, 
and the more recent follow-up, Toxic Wastes and Race at Twenty 
1987-2007. Both the 1987 and the 2007 UCC reports found race to 
be the most significant independent predictor of commercial 
hazardous waste facility locations when socio-economic and 
other non-racial factors are taken into account. In fact, as I 
am sure we will hear from more than one source today, in the 
2000 study the UCC study found that neighborhoods within 3 
kilometers of commercial hazardous waste facilities are 56 
percent people of color whereas non-host areas are 30 percent 
people of color.
    So what is the impact and cost on communities of color of 
these disparities? Perhaps most importantly, it has been 
effectively argued that disparities in pollution are a leading 
cause of the health disparities among America's populations. 
Many of the principal causes of death in the United States 
today (cancer, chronic lung disease and diabetes) have 
significant environmental causes. Furthermore, the 
environmental effects of non-lethal conditions (including birth 
defects, asthma, learning disabilities and nervous system 
disorders) are also well documented.
    The NAACP recognizes that one of the major hurdles facing 
this committee, as well as the Federal Government, is the fact 
that many of the zoning laws and regulations which determine 
who is exposed to hazardous pollution are made at the local 
level. This however does not, and should not, absolve the 
Federal Government from taking action to try to mitigate 
environmental injustices and help communities help themselves.
    The NAACP strongly supports the two bills that are the 
subject of today's hearing, H.R. 1103, the Environmental 
Justice Act of 2007 and H.R. 1055, the Toxic Right to Know 
Protection Act. If enacted, these bills will provide 
communities with powerful tools in their struggle against 
pollutants. By providing communities with details about the 
quantity and quality of pollutants in their air, water or soil, 
they can make informed decisions and demands of their elected 
officials. An informed community is an empowered community, and 
bills like H.R. 1103 and H.R. 1055 will provide individuals and 
neighborhoods with much-needed tools in their struggles to 
safeguard themselves and their families.
    H.R. 1055 corrects a January 2007 regulation by the U.S. 
Environmental Protection Agency (EPA) which would allow up to 
ten times more pollution to be released by a facility before 
that facility is required to submit to EPA a detailed report of 
its emissions. EPA collects such reports in a publicly 
accessible database known as the Toxic Release Inventory or 
``TRI.'' TRI has proven to be an effective tool for raising 
public awareness of the amounts and kinds of toxic pollution 
released by a variety of facilities, and providing support for 
public advocacy that has reduced toxic pollution levels. 
Without H.R. 1055, communities that are disproportionately 
burdened with toxic pollution will not have the vitally 
important information needed to protect their health and 
environment.
    For example, African Americans living in Mossville, 
Louisiana have been documented by EPA and a Federal Government 
health agency as having elevated levels of dioxin, an extremely 
toxic chemical that can cause cancer and harm the normal 
development of the unborn and children. Using TRI reports that 
were collected by EPA prior to its January 2007 rule change, 
the residents of Mossville were able to identify the industrial 
facilities operating near their community that release the same 
unique dioxin compounds that have been detected in their blood 
and environment. Without TRI reports, the people of Mossville 
would not have the ability to find the sources of their dioxin 
exposures, and call on EPA to take action that protects their 
health and the health of future generations.
    By requiring TRI reports to provide more complete 
information about toxic pollution, House Bill 1055 supports the 
right of communities to access reliable information regarding 
the pollution that affects their health and environment.
    H.R. 1103 also takes tremendous strides towards ensuring 
environmental justice. By codifying executive order 12898, H.R. 
1103 will strengthen compliance and enforcement of 
environmental justice goals at the Federal level. This 
Executive Order reinforced the promise of the Civil Rights Act 
of 1965, which prohibits discrimination in programs receiving 
Federal funds. In the years since Executive Order 12898 was 
issued, the EPA and other Federal agencies have adopted 
commitments to environmental justice. Yet numerous studies have 
concluded that significant action is still needed for EPA to 
integrate equity concerns into their operations in a way that 
will end this form of injustice for minority and low-income 
groups. H.R. 1103 would ensure that Executive Order 12898 is 
carried out faithfully and without delay.
    I would like to close my statement with a few examples of 
why H.R. 1103 and H.R. 1055 are necessary and the good they can 
do. For the record, I would like to include in my written 
testimony an excerpt from this month's Crisis Magazine, the 
Magazine of the NAACP. The cover story of the July / August 
edition is on Environmental Justice, and within the articles 
are several good examples of individuals and communities who 
have fought against polluters and pollution.
    Included in these articles is the story of Peggy Shepard, 
the co-founder of WE ACT, a community group focusing on 
cleaning up communities of color in New York City. Despite a 
strong organizational structure which was able to harness 
public outrage into demonstrations and effective legal 
strategies, Ms. Shepard reports that ``science, technology and 
research are also indispensable tools for a community in its 
struggle to create a safe and sustainable environment. Its lack 
is a void that contributes to communities of color being 
excluded from decision-making positions.''
    I would also like to thank Congressman Wynn, Congresswoman 
Solis, Congressman Pallone and the other members of this 
subcommittee for all of your efforts on this important issue. I 
would also like to thank Leslie fields of the Sierra Club's 
Environmental Justice Department for her assistance in 
preparing this statement, as well as the input of the group 
Advocates for Environmental Human Rights.
    I will happily take your questions.
                              ----------                              

    Mr. Wynn. Thank you very much for your testimony.
    Dr. Bullard.

 STATEMENT OF ROBERT D. BULLARD, WARE PROFESSOR, DEPARTMENT OF 
  SOCIOLOGY; DIRECTOR, ENVIRONMENTAL JUSTICE RESOURCE CENTER, 
             CLARK ATLANTA UNIVERSITY, ATLANTA, GA

    Mr. Bullard. Good afternoon. My name is Robert Bullard, and 
I direct the Environmental Justice Resource Center at Clark 
Atlanta University. Mr. Chairman and members of the 
subcommittee, I want to thank you for holding this hearing.
    This year marks the 25th anniversary of Warren County, NC, 
PCB Landfill protests in 1982, that made headlines and ignited 
the environmental, the national environmental justice movement. 
This year also represents the 20th anniversary of the landmark, 
``Toxic Wastes and Race at Twenty, Toxic Wastes and Race in the 
United States Report,'' published by the United Church of 
Christ.
    To commemorate this milestone, the UCC asked me to assemble 
a team of researchers to update that report. We did, and that 
report is titled, ``Toxic Wastes and Race at Twenty, 1987-
2007.'' We released that report in March in Washington, DC.
    The findings, people of color make up the majority, 56 
percent of those living in neighborhoods with a 2-mile radius 
of the Nation's commercial hazardous waste sites, nearly double 
the percentage in areas 2 miles, more than 2 miles.
    People of color make up more than two-thirds, 69 percent, 
of the residents in neighborhoods with clustered facilities. It 
is easier to get two facilities if you have one. It is easier 
to get five if you have four.
    Nine out of 10 EPA regions have racial disparities in the 
location of hazardous waste facilities. I wrote a book in 1990, 
called, ``Dumping in Dixie.'' This is not a Southern phenomena. 
It is national.
    Forty of 44 States, 90 percent of the hazardous waste 
facilities have disproportionately high percentages of people 
of color in host neighborhoods.
    Conclusions: People of color are concentrated in 
neighborhoods and communities with the greatest number of 
facilities and people of color in 2007, are more concentrated 
in areas with commercial hazardous waste facilities than they 
were in 1987.
    Clearly, low-income and communities of color continue to be 
disproportionately and adversely impacted by environmental 
toxins. It has now been more than 13 years since President 
Clinton signed Executive order 12898, however, environmental 
justice still eludes many communities across this Nation.
    Numerous studies have documented that people of color in 
the United States are disproportionately impacted by 
environmental hazards in their homes, schools, neighborhoods, 
and workplace. Schools are not safe in some communities. A 
2001, report indicated that over 600,000 school children in 
Massachusetts, New York, New Jersey, Michigan, and California 
were, live within, these schools were located within a half a 
mile of a Federal Superfund site.
    When we look at the reports from GAO, from the EPA's 
Inspector General, it is clear that environmental justice from 
the Executive order is not being implemented. Numerous studies, 
the most recent study done by the Associated Press shows that 
79 percent of African-Americans live in the most dangerous 
facilities where, related to TRI.
    If you look at the whole question of the weakening of TRI, 
it is important to note that when you overlay the toxic release 
inventory database facilities with the commercial hazardous 
waste facilities and the other facilities that is located in 
communities of color and low-income communities, you have 
saturated communities. You have sacrifice zones. You have 
communities that not only bear a disproportionate burden but in 
many cases are fence-lined with facilities. And so when you 
tinker and tamper with a database that has been used for many 
years for longitudinal data and for comparative studies, it is 
important to understand that it is not just one facility that 
you are talking about or one database. You are talking about 
communities that are suffering.
    There are more than 36 recommendations from the report. 
There are 10 that were highlighted and lifted out and more than 
100 organizations around the country endorsed them. It is 
important to note that two of those 10 recommendations that 
were top priorities included passing a National Environmental 
Justice Act codifying the Executive order and protecting and 
enhancing community right-to-know, worker right-to-know, 
community and worker right-to-know so that H.R. 1103, 
Environmental Justice Act of 2007, and H.R. 1055, Toxic Right-
to-Know Protection Act, fall hand in hand with the findings and 
the conclusions of the report.
    Getting Government to respond to environmental and health 
concerns of low income and people of color communities has been 
an uphill struggle. The time to act is now. Our communities 
cannot wait another 20 years. Achieving the environmental 
justice for all makes us a much healthier, stronger, and more 
secure Nation as a whole.
    I will be pleased to answer any questions that you may 
have. Thank you very much.
    [The prepared statement of Mr. Bullard follows:]

    [GRAPHIC] [TIFF OMITTED] T5093.054
    
    [GRAPHIC] [TIFF OMITTED] T5093.055
    
    [GRAPHIC] [TIFF OMITTED] T5093.056
    
    [GRAPHIC] [TIFF OMITTED] T5093.057
    
    [GRAPHIC] [TIFF OMITTED] T5093.058
    
    [GRAPHIC] [TIFF OMITTED] T5093.059
    
    [GRAPHIC] [TIFF OMITTED] T5093.060
    
    [GRAPHIC] [TIFF OMITTED] T5093.061
    
    Mr. Wynn. Thank you very much for your testimony.
    Mr. Bravo.

STATEMENT OF JOSE BRAVO, COMMUNITIES FOR A BETTER ENVIRONMENT, 
 EXECUTIVE DIRECTOR, JUST TRANSITION ALLIANCE, CHULA VISTA, CA

    Mr. Bravo. Thank you, Mr. Chairman, and thank you, members 
of the subcommittee for inviting us here to give testimony 
today. On behalf of Communities for a Better Environment and 
the Just Transition Alliance, I would like to thank you for 
inviting me to speak on the important issues of right-to-know 
and environmental justice.
    The bulk of my testimony is based on the courageous work of 
Communities for a Better Environment, where I serve as a board 
member. But my comments here today are also endorsed by the 
Just Transition Alliance, which I am the executive director of. 
Communities for a Better Environment is a California community-
based environmental organization working for environmental 
justice in highly-industrialized areas of California, 
especially in communities of color and low-income communities 
that have been shown to bear the higher, a higher burden in 
concentration of toxic sources.
    We believe that with the weakening of the toxic release 
inventory California loses more ZIP Codes reporting to TRI than 
any other State in the Nation. The weakening of TRI by setting 
higher reporting thresholds causes California data, lost data 
from all reporting facilities for 64 of 502 ZIP Codes, and 
other California ZIP Codes also lose important data. This is 
tragic, because TRI has been so useful in identifying and 
prioritizing pollution sources, because reporting is so easy to 
do and because the act of reporting itself makes companies much 
more aware of their toxics use. Consequently, weakening, the 
weakening of the, of TRI must be rolled back.
    CBE has used the toxic release inventory since its 
inception as a fundamental right-to-know tool. For example, one 
of the earliest analyses documenting environmental racism was 
the 1989, CBE ``Richmond at Risk'' report. This analysis of 
TRI, Superfund, and demographic data demonstrated that much 
higher concentrations of topic sources and emissions are sited 
in areas with the highest populations of people of color. 
Reports like these were crucial to community-based campaigns 
that led to the development of new environmental justice 
policies by public agencies and the phase-out of unnecessary 
chemical use.
    CBE and many other community-based groups have continued to 
use the toxic release inventory in concert with demographic 
data to map cumulative exposure from large numbers of smaller 
toxic sources, which individually may have posed lower health 
risks, but because of geographic concentration presented 
formidable risks. CBE continued to use the data to document 
increased risks in our 1998, ``Building a Regional Voice for 
Environmental Justice'' report. And in hundreds of individual 
research efforts throughout the years. Frequently, community 
members have used TRI data themselves to push for local 
improvements.
    Our 2004, report found in southern California that African-
Americans are a third more likely and Latinos nearly twice as 
likely to live in a census tract containing a facility emitting 
high-priority TRI pollutants. The racial differences in 
exposure persisted even when data was controlled for income, 
land use, and manufacturing presence. The racial chasm is also 
larger than emissions are, also larger when emissions are 
carcinogenic, the more dangerous the facility, the higher the 
likelihood that minorities are concentrated nearby.
    The continued undisrupted concentration of large numbers of 
industrial polluters in communities of color with highest 
incidents of health problems, including asthma, is a major 
reason why TRI reporting thresholds need to be restored to the 
lower thresholds for reporting.
    Reporting thresholds back down to 500 pounds instead of the 
new relaxed 2,000 pound threshold is crucial. Not only do 
concentrations of large numbers of smaller emitters cause toxic 
hotspots, but individual companies' emissions can fluctuate or 
grow. Failure to report at the lower significant level can 
cause companies to miss reporting when their emissions increase 
because they are accustomed to reporting. This can lead to many 
years of delay in identification of the problem emissions. In 
one case of a steel company located in a residential 
neighborhood in the Bay Area, the company's toxic emissions 
were causing frequent odor problems, and emissions were about 
500 pounds, but lower than 2,000 pounds, but growing. If TRI 
thresholds had been weakened at that time, the trend in 
documented emissions increases would have been identified. 
Neighbors pushed for cleanup, resulting in the company agreeing 
to install a carbon control plant.
    Some of the worst carcinogens such as methylene chloride 
and perchloroethylene previously widely used in California 
manufacturing are now more rarely used, thanks to community 
campaigns using TRI. These have been a widespread phase out by 
scores of California manufacturers of many carcinogens and 
early phase out in the past of ozone-depleting chemicals due to 
community publications of TRI data on individual companies and 
on regional concentration facilities, of facilities. Good and 
comprehensive TRI reporting was not only responsible for public 
health improvements in the past, but will also provide crucial 
safeguards for overuse of other toxic chemicals and toxic 
hotspot concentrations, which is still, unfortunately, 
widespread.
    [The prepared statement of Mr. Bravo follows:]

                        Testimony of Jose Bravo

    Mr. Chairman and members of the subcommittee:
     On behalf of Communities for a Better Environment (CBE) 
and the Just Transition Alliance (JTA) I would like to thank 
you for inviting me to speak on the important issues of public 
right-to-know and environmental justice.
     The bulk of my testimony is based on the courageous work 
of CBE, where I serve as a board member. But my comments here 
today are also endorsed by the Just Transition Alliance for 
which I am executive director. Communities for a Better 
Environment is a California community-based environmental 
organization working for Environmental Justice in highly-
industrialized areas of California especially in communities of 
color and low income communities that have been shown to bear a 
higher burden of concentration of toxic sources.

     <bullet> With the weakening of the Toxic Release 
Inventory, California loses more zip codes reporting to the TRI 
than any other state in the nation. The weakening of the TRI by 
setting higher reporting thresholds causes California to lose 
data from all reporting facilities for 64 out of 502 zip codes, 
and the other California zip codes also lose important data. 
This is tragic, because TRI has been so useful in identifying 
and prioritizing pollution sources, because reporting is so 
easy to do, and because the act of reporting itself makes 
companies much more aware of their toxics use. Consequently the 
weakening of the TRI must be rolled back.
     <bullet> CBE has used the Toxics Release Inventory (TRI) 
since its inception, as a fundamental Community Right-to-Know 
tool. For example, one of the earliest analyses documenting 
environmental racism was the1989 CBE ``Richmond at Risk: 
report. This analysis of TRI, Superfund, and demographic data 
demonstrated that much higher concentrations of toxics sources 
and emissions are sited in areas with the highest populations 
of people of color. Reports like these were crucial to 
community-based campaigns that led to the development of new 
Environmental Justice policies by public agencies, and to 
phaseout of unnecessary chemical use.
     <bullet> CBE and many other community-based groups have 
continued to use the TRI in concert with demographic data to 
map cumulative exposure from large numbers of smaller toxic 
sources, which individually may have posed lower health risks, 
but because of geographic concentration presented formidable 
risks. CBE continued to use the data to document increased 
risks in our 1998 ``Holding Our Breath'' report, in our 2004 
``Building a Regional Voice for Environmental Justice'' report, 
and in hundreds of individual research efforts throughout the 
years. Frequently community members have used the TRI data 
themselves to push for local improvements.
     <bullet> Our 2004 report found in southern California that 
African-Americans are a third more likely and Latinos nearly 
twice as likely to live in a census tract containing a facility 
emitting high-priority TRI pollutants. The racial differences 
in exposure persisted even when data was controlled for income, 
land use, and manufacturing presence. The racial chasm is also 
larger when emissions are carcinogenic ``the more dangerous the 
facility, the higher the likelihood that minorities are 
concentrated nearby. Mobile sources of pollution just made this 
problem worse.
     <bullet> The continued undisputed concentration of large 
numbers of industrial polluters in communities of color with 
the highest incidences of health problems (including asthma) is 
a major reason why the TRI reporting thresholds need to be 
restored to the lower thresholds for reporting.
     <bullet> Putting the TRI reporting thresholds back down to 
500 lbs instead of the new relaxed 2,000 lb. threshold is 
crucial. Not only do concentrations of large numbers of smaller 
emitters cause toxic hotspots, but individual companies' 
emissions can fluctuate or grow. Failure to report at the lower 
significance level can cause companies to miss reporting when 
their emissions increase because they are not accustomed to 
reporting. This can lead to many years of delay in 
identification of problem emissions. In one case of a steel 
company located in a residential neighborhood in the Bay Area, 
the company's toxic emissions were causing frequent odor 
problems and emissions were above 500 lbs., but lower than 
2,000 lbs, but growing. If the TRI threshold had been weakened 
at the time, the trend in documented emissions increases would 
not have been identified. Neighbors pushed for cleanup, 
resulting in the company agreeing to install a carbon control 
system at the plant.
     <bullet> CBE reports based on TRI data led directly to 
phase out of toxic chemicals at many industrial facilities, 
which operated even better without these chemicals. For 
example, after public campaigns based on TRI data, many 
companies using toxic solvents as degreasing agents found that 
they could eliminate the production steps introducing grease in 
certain metals processing, so that degreasing with toxic 
solvents became completely unnecessary. Other companies found 
that toxic cleaning solvents could be replaced with soap and 
water! Of course this did not cause the phaseout of all toxic 
chemicals, but it resulted in phaseout of many of the most 
unnecessary uses of toxics for many chemicals. It also pushed 
many companies to voluntarily minimize usage until alternatives 
could be phased in.
     <bullet> Some of the worst carcinogens such as methylene 
chloride and perchloroethylene previously widely used in 
California manufacturing are now more rarely used, thanks to 
community campaigns using TRI data. There has been a widespread 
phaseout by scores of California manufacturers of to community 
publications of TRI data on individual companies and on 
regional concentrations of facilities. Good and comprehensive 
TRI reporting was not only responsible for public health 
improvements in the past, it will also provide crucial 
safeguards for future overuse of other toxic chemicals and 
toxic hotspot concentrations which still are unfortunately 
widespread.
     <bullet> In the past, CBE identified many companies that 
failed to report to the TRI, skewing the data. To do this, CBE 
had to find data through painstaking research of individual 
local permit information (which is very inaccessible to the 
public, frequently taking months to receive). CBE succeeded in 
getting the non-reporting companies to submit their data to the 
publicly accessible TRI. Even more importantly, CBE won many 
dozens of EPA-approved settlements with these companies in 
which we convinced the companies to completely phase out use of 
the toxic chemicals in lieu of paying penalties for past 
failure to report. We helped the companies identify pollution 
prevention options and consultants, who often found that 
companies would MAKE money from chemical phaseout. As a result, 
millions of pounds of toxic, cancer-causing, and ozone-
depleting chemicals were completely phased out by dozens of 
California companies.
     <bullet> While community organizations like CBE have used 
the TRI data successfully for decades, we still have a long way 
to go and cannot afford to lose the full use of this important 
tool. Data shows persistent disparity in statewide patterns of 
toxic use, with continued higher exposure for African Americans 
and Latinos as compared to Anglos.
     <bullet> We urge you to reinstate the strong TRI reporting 
requirements at the lowest thresholds.
                              ----------                              

    Mr. Wynn. Thank you, Mr. Bravo.
    Mr. Bopp.

STATEMENT OF ANDREW BOPP, DIRECTOR, PUBLIC AFFAIRS, SOCIETY OF 
          GLASS AND CERAMIC DECORATORS, ALEXANDRIA, VA

    Mr. Bopp. Thank you, Chairman, and thank the committee for 
allowing me to testify today on EPA's efforts to reduce the 
paperwork burden of TRI reporting on small business. My name is 
Andrew Bopp. I am the public affairs director of Society of 
Glass and Ceramic Decorators. This group is made up primarily 
of companies that custom-print mugs and glassware including 
very small family businesses. And I noted that earlier people 
were referring to companies up to 500. I am talking of 
companies around 15 to 20 employees and then, well, I will get 
into this.
    I have worked with SGCD members for 10 years now, including 
business owners like Nancy Klinefelter, who is president of 
Baltimore Glassware Decorators. I have tried to help her as she 
grapples with the regulatory issues related to operating a 
business where lead is a necessary part of the process. Nancy 
testified on the TRI burden reduction before the Senate EPW 
Committee back in January, and she was eager to be here today. 
Unfortunately, the nature of a small business, she is at a 
trade show in Maryland. No one else from her company could do 
it, so she couldn't be here, so I am basically speaking for her 
and others like her.
    As with most regulations as has been pointed out before, 
the TRI reporting burden creates far more problems for small 
business than for large business. Companies like Nancy's 
especially, and again, we are talking 15, 20 employees, not the 
500 threshold people referred to earlier. To give you an idea 
of the type of company I am talking about, Baltimore Glass was 
started by Nancy's brother back in 1977, with the help of her 
father, who had worked in the glass industry for more than 50 
years. They employ 15 employees, like I said before, including 
Nancy's mother, who works in the office, her father, who acts 
as general manager, and her brothers who work in sales and 
production. This is truly your family-type business that we are 
talking about. They employ no engineers on staff, certainly no 
environmental engineers, so the TRI burden, it falls entirely 
on Nancy.
    Baltimore Glassware is not a unique company. It represents 
the typical wholesale glass and ceramic decorator in this 
country. They print small quantities of glass and ceramic ware, 
such as mugs as Mr. Shimkus showed, for ad specialty, 
restaurants, souvenir-type uses. When custom printing these 
mugs or glasses, companies may use lead-bearing enamels on the 
outside surfaces to achieve the color and mainly durability 
demanded by customers.
    As a rule, unleaded enamels do not have the durability, 
gloss, or color ranges the customers require. It is not a case 
of, oh, we are just going to choose to pick this. It is a case 
of you either get the order or you don't, which means something 
in business.
    These lead-free colors do not hold up well for abrasion of 
deterioration in dishwashers. It is very important to 
understand that the leaded colors become a part of the glass 
after they are fired. Also, due to the cost of these colors, 
Baltimore Glass and all the companies like them use what is 
needed and the rest goes back on the shelf. These are not 
companies that are emitting as I will get to.
    I am testifying today really in support of EPA's recent 
burden reduction rule that allows companies such as Baltimore 
Glass to use the TRI Form A instead of the more complicated 
Form R. To do so, and this is the important thing, they must 
meet very strict eligibility requirements. It is really similar 
to using the 1040EZ instead of the 1040, if you qualify. You 
are still reporting everything, but you get to do it in a 
simpler way.
    To qualify, that decorator, Nancy's company or a company 
like them, must use less than 500 pounds of lead in a year, and 
again, that is use, not release, and the key is they must 
report zero release of lead onsite and offsite. They have to 
report nothing. So this is not a case of losing information. 
This is a case of nothing. She is able to do it on a simpler 
form. Essentially all of the information that the neighbors 
need is what lead is released, like Congressman Shimkus 
referred to earlier, the release. That is what counts.
    Baltimore Glass does exceed the threshold of 100 pounds 
used in a year to enter into the program, and they exceed the 
employee threshold of 10 employees to get into the program, but 
barely, so there they are. They are in the program with major 
companies using the Form R.
    I have spoken with Nancy every year as she has attempted to 
complete the Form R properly, but every year she receives 
notices from EPA that paperwork corrections are needed. These 
changes do no reflect the failure to report color use or 
release. They just reflect paperwork errors. For example, last 
year she received a 13-page notice from EPA that informed her 
she had not identified lead compounds by their correct CAS 
number. This is a small businesswoman who is expected to look 
through these different forms that engineers process to fill 
out a report. Using Form A streamlined the process for Nancy 
since it was used for the 2006 report, and she has to date not 
received any questions from EPA on her last report.
    Remember, again, small business. Time spent on completing 
paperwork is time that Nancy and others like her cannot spend 
on doing things like supervising employees, working with 
customers, and more importantly, looking for new business. 
Glass and ceramic decorators face brutal competition like many 
manufacturers from Chinese decorators. The reality is that 
paperwork burdens add to the cost of doing business by 
absorbing staff time. EPA estimated in the final rule that 
companies would save 15\1/2\ a year of staff time if they 
qualified to use the Form R. That was brought up earlier, and 
that is 2 days worth of work for someone. That may not mean 
much to a large company, but it means a lot, a real lot to a 
small company. Nancy said this, she said this before the EPW 
Committee.
    SGCD and responsible small business owners like Nancy do 
believe that it is important to keep track of any releases that 
might impact their neighborhoods where they live. She lives 
there. Or the environment. That has not changed as a result of 
EPA's new burden reduction rule. If a decorator like Nancy has 
a release, no matter how miniscule or even if it is managed 
offsite, they will be required to use Form R as in the past. 
One and you are back on Form R.
    If a company manages, like Nancy's, its burden production 
process during the year to avoid any release, then you can use 
the Form A. That acts as an incentive to eliminate release, and 
it definitely does. I talk to her every year she is doing the 
paperwork, and it is confusing every year.
    SGCD does commend EPA for listening to our concerns and 
making an effort to reduce the TRI paperwork burden without 
impacting the information that decorators provide to the public 
through the TRI Program. I urge this committee to support such 
paperwork burden reduction efforts which are critical to 
maintaining the competitiveness of business in this country, 
especially small business.
    Thank you, again, for the opportunity to testify.
    [The prepared statement of Mr. Bopp follows:]

    [GRAPHIC] [TIFF OMITTED] T5093.062
    
    [GRAPHIC] [TIFF OMITTED] T5093.063
    
    [GRAPHIC] [TIFF OMITTED] T5093.064
    
    [GRAPHIC] [TIFF OMITTED] T5093.065
    
    [GRAPHIC] [TIFF OMITTED] T5093.066
    
    [GRAPHIC] [TIFF OMITTED] T5093.067
    
    Mr. Wynn. Thank you, Mr. Bopp.
    Mr. Finkelstein.

    STATEMENT OF ALAN FINKELSTEIN, ASSISTANT FIRE MARSHAL, 
     STRONGSVILLE FIRE AND EMERGENCY SERVICES, TRENTON, NJ

    Mr. Finkelstein. Good afternoon. My name is Alan 
Finkelstein, and I would like to thank Chairman Wynn and Mr. 
Shimkus and the subcommittee members for permitting me to come 
in and give testimony for this hearing. I would like to also 
thank Mr. Shimkus for acknowledging my existence before. I 
appreciate the acknowledgement.
    I am here today because I wanted to speak in support of the 
Toxic Right-to-Know Protection Act, H.R. 1055. I want to make 
some clarifications. I am not here on behalf of my fire 
department. I am not here on behalf of the Cuyahoga County 
Local Emergency Planning Committee or any other organization I 
am associated with.
    I also need to make some clarifications. Mr. Shimkus made a 
statement before regarding the fact that first responders don't 
make use or wouldn't make use of the TRI in their response, and 
that is correct. I take credit for making that comment on a 
conference call that was last, made last winter, to which there 
were several replies. It was not my intent for anybody to think 
that first responders would make use of 313 rather than 311 and 
312, which are the extremely hazardous substances, and those 
are required to be reported.
    I have been in the fire service for 25 years, and for the 
last 15 years I have been involved with hazardous materials 
response in planning as well our hazard emergency planning that 
goes on within my city and Cuyahoga County. I have done 
extensive work with the Local Emergency Planning Committee and 
with the U.S. EPA Region 5 as far as getting chemical reporting 
in and working with facilities to help make them safer.
    The toxic release inventory provides us with information 
that we wouldn't ordinarily have. There are some chemicals at 
facilities or materials at facilities that aren't covered under 
any other section of EPCRA. A facility in my jurisdiction has 
copper and manganese in inventory. They are not covered under 
any other section of EPCRA. They don't provide a hazard 
probably as far as release because generally they are not in 
particulate form, however, for the workers they are a hazard 
and for responders they are a hazard if they go into that 
building. We need to make sure that they have the proper 
respiratory protection for themselves.
    As the fire prevention officer for my city, I am 
responsible for the facilities, protecting their workers and 
for staff in general.
    There are a couple of things that I learned when I was in 
my original fire school way back in the dinosaur age, and there 
are two things that stood out for me were that life safety is 
always the first priority for firefighters, and for the 
citizens at large. The second thing is that pre-planning is 
important before an incident happens. Toxic release inventory 
gives us information about facilities that may not be available 
in other sections. It also helps us address things with the 
facility. If they have issues, we can help, also help them out 
as far as their planning goes.
    There are sections of the Clean Air Act, section 112(r), 
which is the risk management plan, and also the Emergency 
Planning and Community Right-to-Know Act which were created to 
help jurisdictions get the information they need for planning 
and response. It was also created to help the citizens get 
information for the facilities in their jurisdictions and which 
they live around. Because of concerns about homeland security, 
a lot of the things, a lot of the information that was 
available is no longer available to citizens except on a case-
by-case basis. It makes things difficult for them.
    By increasing the reporting threshold from 500 to 5,000 
pounds for most facilities and enabling facilities to use the 
Form A, which doesn't provide any quantitative information 
about what is present at the facilities, it basically just 
tells us that a facility is there. It doesn't give us any 
information. There have been some companies that complained 
that the TRI reporting was overly burdensome and that it was 
expensive. My contention is that the cost of not reporting it 
and having people get injured or killed is a lot more 
expensive.
    Basically as far as the reporting goes, it is the 
responsibility of business to make sure that they are safe. It 
may benefit the facility because they have transparent 
operations. It lets the citizens know that they are being open 
and correcting in what they have out there, and our facilities 
tend to be thinking along those lines.
    One of the side benefits resulting from toxic release 
inventory and the risk management plan being out there is that 
facilities decrease their inventories and change their 
processes so that they can minimize the amounts of chemicals 
they have on site at any one time. We have facilities that are 
required to report 10,000 pounds of ammonia if they have it in 
inventory. They have decreased the size of their tanks down to 
7,000 pounds. So they save money by not having to file the 
reports in certain areas of EPCRA and RMP, and they also save 
on product because they don't need to keep so much on hand.
    The safety is also benefited by having those reductions 
made in the amount that is present and also there are 
inherently safer processes being used. For the small business 
people or the Small Business Administration, I would also like 
to add that if facilities need environmental contractors to 
come in and help them do their paperwork, they are able to do 
so, and it helps the small businesses out.
    The last point I would like to make, I cut it a lot 
shorter. You have the written ones. I wanted to keep it a 
little bit shorter, is that the facilities are generally 
located in areas where there are low-income people who have the 
most risk of health problems because they don't have healthcare 
available to them, and they also have the least political 
voice.
    Thank you.
    [The prepared statement of Mr. Finkelstein follows:]

    [GRAPHIC] [TIFF OMITTED] T5093.068
    
    [GRAPHIC] [TIFF OMITTED] T5093.069
    
    [GRAPHIC] [TIFF OMITTED] T5093.070
    
    [GRAPHIC] [TIFF OMITTED] T5093.071
    
    [GRAPHIC] [TIFF OMITTED] T5093.072
    
    [GRAPHIC] [TIFF OMITTED] T5093.073
    
    [GRAPHIC] [TIFF OMITTED] T5093.074
    
    [GRAPHIC] [TIFF OMITTED] T5093.075
    
    [GRAPHIC] [TIFF OMITTED] T5093.076
    
    [GRAPHIC] [TIFF OMITTED] T5093.077
    
    Mr. Wynn. Thank you very much, Mr. Finkelstein. We are 
going to have to be a little tight, because as you can tell, 
there is a vote.
    I want to get Ms. Wittenberg's testimony in before we go to 
the vote.
    Ms. Wittenberg.

  STATEMENT OF NANCY WITTENBERG, ASSISTANT COMMISSIONER, NEW 
   JERSEY DEPARTMENT OF ENVIRONMENTAL PROTECTION, TRENTON, NJ

    Ms. Wittenberg. Thank you. I will keep it short. I 
optimistically wrote good morning. Good afternoon now. I will 
learn my lesson. My name is Nancy Wittenberg. I am the 
assistant commissioner of environmental regulation for the New 
Jersey Department of Environmental Protection.
    New Jersey has got a unique perspective on the TRI issue. 
We have combined implementation of several laws in New Jersey, 
including our own Worker and Community Right-to-Know Law, our 
own Pollution Prevention Act, and the Federal Emergency 
Planning and Community Right-to-Know Act. The burden reduction 
didn't impact New Jersey. We combined our forms into one form, 
so regardless of what EPA did, facilities in New Jersey that 
would be required to submit any form, be it A or R, to DEP have 
to submit to us a different form, which is called a Release and 
Pollution Prevention Report.
    It is much like the Form R, but maybe it is a little easier 
to do because we have never had any complaints from small 
business. I checked. I went online, I worked through the form 
myself. We have pretty much simplified it down as best we 
could.
    What we did sort of to make the point today was we looked 
back over the data we have gotten over the years compared to 
what we wouldn't have gotten if we had been subject to the 
burden reduction in the State and just to throw out some of the 
numbers quickly that we came up with is that we do a trends 
report, which is perhaps one of the best things we get out of 
our TRI data. And in my submitted testimony is the link to get 
that. We would have missed out on knowing about over a million 
pounds of cancer-causing compounds used in the State of New 
Jersey. That includes 21,000 pounds of waste arsenic. All of 
our arsenic data would be lost to us if that reporting level 
changed. One hundred, twenty-two thousand, four hundred and 
sixty-five pounds of styrene, 175,000 pounds of chromium, 44 
different carcinogen data would have been lost to us 
completely. Six-thousand, seven hundred and seventy-three 
pounds of production-related waste for PBTs over just the last 
4 years, 30 municipalities in New Jersey wouldn't have had any 
of their facilities report at all. So we would have lost a 
significant amount of data.
    In terms of EJ, we looked at two urban areas in New Jersey: 
Linden and Camden. Just over the past 2 years if we had been 
subject to burden reduction, in Camden four facilities would 
not have to report at all, and every facility in Camden is 
right next door to where a lot of people live. In Linden six 
facilities would not have had to report at all, and each of 
these facilities use PBTs including lead as well as 
carcinogens. So that would be a significant loss to those 
communities to know about the use of those substances.
    Clearly, New Jersey has seen the benefits of having this 
data, and we went back and looked at what we wouldn't have had 
should this change impacted us. So we are very supportive. My 
testimony has much more information. I am keeping it short.
    Thanks.
    [The prepared statement of Ms. Wittenberg follows:]

    [GRAPHIC] [TIFF OMITTED] T5093.078
    
    [GRAPHIC] [TIFF OMITTED] T5093.079
    
    [GRAPHIC] [TIFF OMITTED] T5093.080
    
    [GRAPHIC] [TIFF OMITTED] T5093.081
    
    [GRAPHIC] [TIFF OMITTED] T5093.082
    
    [GRAPHIC] [TIFF OMITTED] T5093.083
    
    [GRAPHIC] [TIFF OMITTED] T5093.084
    
    [GRAPHIC] [TIFF OMITTED] T5093.085
    
    Mr. Wynn. Thank you very much. Short but effective.
    I want to thank all the witnesses. Unfortunately, we do 
have a vote on. We have two votes, a 15-minute and a 5-minute, 
so I think it is safe to say that we probably wouldn't be back 
before, about 25 minutes if you want to take a break, get a 
sandwich, or something like that. We will be back, we will have 
questions following that. Thank you.
     The subcommittee stands in recess.
    [Recess.]
    Mr. Wynn. They will probably be drifting in. If someone 
sees them, just let them know. In the meantime, I think what I 
would like to do is go ahead and start. I know Mr. Bopp has 
another engagement. I just have a couple of quick questions 
that I will start with.
    The Chair recognizes himself for questions.
    Mr. Bopp, I am sympathetic to small businesses, but I want 
to cover a couple things. One, we are talking about electronic 
filing for the most part I think.
    Second, you mentioned lead a number of times. Does your 
client deal with other chemicals in her processes, or is she 
primarily concerned about reporting on lead?
    Mr. Bopp. It is really just lead.
    Mr. Wynn. OK. So basically we have a situation of 
electronic filing with one chemical, and isn't it true to 
phrase this other question, isn't it true that basically once 
you, after the first year, your basic data, name, address, 
location, type of chemical, all is pretty much set. You just 
touch the button.
    Mr. Bopp. Right.
    Mr. Wynn. So is it reasonable to say that it is less 
burdensome in subsequent years than it is in the first year?
    Mr. Bopp. It would seem so. For her, though, and I wish she 
were here because she could answer this a heck of a lot better 
than me, but she still files the paper forms. So, again, this 
is someone who actually complains frequently about being forced 
into the electronic forms. So she still does the paper forms. A 
lot of the time that is spent is in tracking the lead use and 
the colors because every color has a different percentage of 
lead.
    So, and, again, from her experience, like I have said, 
every single year she has gotten something back from EPA saying 
that something she has done is not correct. Again, there are no 
releases there, but this is, again, a very small company. 
Obviously they are computerized, who isn't, but she is not very 
comfortable with working on the web, and again, I wish she were 
here, because she would say exactly that, and she often really 
gets wound up over things like that.
    Mr. Wynn. Are there any other witnesses, do any other 
witnesses want to make a comment on the small business problem? 
I think Ms. Wittenberg----
    Ms. Wittenberg. The only thing I would say is that from New 
Jersey's perspective and we have been doing this a long time, 
and it is a State program, so we provide as much assistance as 
we can, we have never had a complaint from small business about 
burden, about cost. I checked every office we had to make sure 
that, over the years, we have a small business assistance 
office.
    As I said, our forms are on-line, it is mandatory 
electronic. The form is set up to be pretty user friendly, but 
it has not been an issue for the small businesses in our State 
anyway to date to do the reporting.
    Mr. Wynn. Thank you. Mr. Shelton, I appreciate your 
testimony, and I know you said there are instances, and I am 
aware of instances in which the environmental justice issue has 
really caused hardship. I was wondering if you could help us 
put a human face on this if you might relate one of the 
situations that the NAACP has encountered.
    Mr. Shelton. Thank you very much. We visited the small town 
of Gainesville, GA, very close to a rather large production 
facility. If you walked into this local community, what you see 
is some very pristine, working class homes on a street that 
slopes down to a very, very nice public playground at the 
bottom of this very nice and pristine community. Just past the 
playground you see a drainage ditch and just on the other side 
of that you see a rather large facility.
    That large facility has a number of smokestacks that pour 
out toxins and so forth into the air. Interestingly enough, it 
was the facility that actually paid for that very, very nice 
playground and the great part and the great area that we had a 
chance to visit.
    We walked through the community and actually stopped by 
each door on a one-block, both sides of the street, and stopped 
at each house in which a member of the community actually had 
some form of cancer. What we found as we moved through the 
streets and put a black ribbon on the steps, on the railing of 
each of the houses that actually got through stopping by many 
to visit to find out in many cases that more than one member of 
the family actually has some kind of cancer. We stopped and 
visited one young man, 30 years of age, living with his mother, 
his sister, and all three had some type of cancer. Mother had a 
form of throat cancer, he had a form of a lung cancer, his 
sister had a form of ovarian cancer, but this seemed to go on 
on both sides of the street and throughout this entire city 
block. As we got to the block after laying these black ribbons, 
we turned around and looked back, and quite frankly, Mr. 
Chairman, we were stunned and shocked to see that nearly every 
house on this street, 20 houses on each side of the street, 
almost every house had a black ribbon in front of it. It was 
shocking to see how pollutants like this actually destabilized 
the entire families and for that matter entire communities.
    Mr. Wynn. Thank you very much. That has been the 
observation that many of us have been able to make in 
conversations in different parts of the country, and I 
appreciate you sharing that with us.
    At this time I am going to relinquish the balance of my 
time to my ranking member, Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr.----
    Mr. Wynn. Excuse me. I would like to relinquish my time and 
recognize for a full 5 minutes. You didn't see that coming. A 
full 5 minutes for questioning to Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman.
    A lot of the statements that are made in the second panel 
talks about the community not knowing, having information, the 
right-to-know. I don't disagree with any of that.
    If we could change the definition so that release really, 
so that TRI isn't toxic release, because we know as you heard 
in the, you all sat in the first panel, that it really is toxic 
use, management, and release inventory, no one here would have 
a problem with that, would they?
    Why don't you just, Mr. Shelton?
    Mr. Shelton. It doesn't matter to us what you call it.
    Mr. Shimkus. Right.
    Mr. Shelton. The importance that----
    Mr. Shimkus. Yes. I think there is a problem with what you 
call it, because you by definition tell business and this form 
says you are releasing toxics, where many times they are not. 
They may be good stewards, so if we could just change the 
terminology and still get the same information, you wouldn't 
have a problem with that.
    Mr. Shelton. As long as all the data is collected at the 
same levels quite frankly. As a matter of fact, we would then 
begin to push you further to collect even more data. 
Nonetheless, as long as the data is collected don't care a 
whole lot about what you call it as long as you continue to 
collect that data.
    Mr. Shimkus. OK. Mr. Bopp.
    Mr. Bopp. No. I think that is a very good idea, because, 
again, people look at that----
    Mr. Shimkus. Mr. Finkelstein.
    Mr. Finkelstein. I concur. I think that that is the ideal 
way to go.
    Mr. Shimkus. Ms. Wittenberg.
    Ms. Wittenberg. Not a problem.
    Mr. Shimkus. Not a problem. Great. Thank you.
    I do have unanimous consent to have inserted into the 
record of this hearing a letter supporting analysis submitted 
both, to both of us and dated today from the Business Network 
for Environmental Justice on H.R. 1103. I understand from staff 
that this information was transmitted to your staff yesterday, 
and we were told at the staff level that the majority would 
have no objection to its inclusion.
    Ms. Solis [presiding]. Without objection.
    Mr. Shimkus. Thank you.
    Ms. Solis. It will be entered into the record.
    Mr. Shimkus. And then Mr. Bopp, thanks for staying. I think 
it is important.
    Your fellow, and remember, those of us who really, and we 
are trying to talk about small business. I have problems with 
that definition, what is it, 500, 250?
    Mr. Bopp. Yes.
    Mr. Shimkus. But most of us in rural America, small 
business is small business. It is 30 employees or less. Small 
business creates 50 percent of all new jobs in America.
    Mr. Bopp. Uh-huh.
    Mr. Shimkus. Are those Mom and Pops that create new jobs. 
So your testimony is important, and I appreciate you coming 
here, and I appreciate you staying.
    Obviously, your fellow panelists has overwhelmingly 
questioned the EPA's TRI burden reduction proposal. They keep 
pointing to overwhelming amount of comments against this rule. 
Why is this burden reduction so important?
    Mr. Bopp. Again, the thing I keep coming back to is for 
these small businesses it is zero releasers who are getting 
reduction. Companies in the glass and ceramic industry face 
real, real, real tough competition from overseas. Every 2-day 
period, which is what the savings would be that it saved, is 
valuable. It is helpful, and again, to report nothing. If you 
are reporting something, our, to use the case of Nancy once 
again, she lives in the neighborhood. She is the last one who 
is going to want to have dumping in her neighborhood.
    So to make it simpler for her, to save her time to just 
make things better for business without losing any release 
information, I don't see how that is bad.
    Mr. Shimkus. Would any of your members or other fellow 
small businesses be except from reporting under the new rule?
    Mr. Bopp. No. It is, you are either on the Form R or the 
Form A. If you release anything at all, you are back on the 
Form R, and one pound transmitted offsite, you are back on Form 
R.
    Mr. Shimkus. Is the TRI, hopefully TUMRI, if we can change 
that, is TRI the only environmental health or product safety 
rule that you need to follow?
    Mr. Bopp. Not at all. Starting with the final product FDA 
has heavily regulated the use of metals on tableware for years. 
OSHA rules take precedence for worker exposure possibly in 
these situations, various States have different rules. As you 
can imagine, when there is lead in the consumer product, FDA 
has regulated this tightly for 35 years. It is sort of, it is 
like leaded crystal. Lead is there. It is, if there is no lead, 
there is no leaded crystal. That doesn't mean it is dangerous 
in that form.
    So it is highly regulated already.
    Mr. Shimkus. And are Nancy's mugs and the paint on them 
regulated by anyone else or in any other way? Probably the same 
question.
    Mr. Bopp. Same question basically. Yes. Those agencies 
basically, again, for products using lead, they are heavily, 
heavily, heavily regulated.
    Mr. Shimkus. And Dr. Bullard and Mr. Bravo, the question I 
asked before you returned was if reporting is all the same, 
would you be supportive of changing the TRI phrase to TUMRI, 
that is my new lobbying, which would be the toxic use, 
management, and release inventory?
    The other panelists, I don't want to sway you, they all 
said they wouldn't have a problem. I am--could be an amendment, 
so would you have, if everything else stayed the same, we just 
changed, release, and added, use, management, and release.
    Mr. Bullard. Well, Congressman, I would not have a problem 
with changing that as long as everything stayed the same.
    Mr. Shimkus. OK.
    Mr. Bullard. We have lots of names for facilities and 
reporting requirements like sanitary landfill.
    Mr. Shimkus. Yes. I just want to get clarify. I am just 
trying to bring clarity here.
    Mr. Bravo.
    Mr. Bravo. Yes. Likewise what Dr. Bullard is saying. I 
wouldn't have a problem with that, but there is something to be 
said about names.
    Mr. Shimkus. Yes. That is right. And I am just, I thank 
you. I went over my time. Yield back.
    Ms. Solis. OK. Then I guess I am the closing person here, 
but I have a lot of questions.
    Mr. Bopp, you mentioned that there is a burden that is 
shared by small businesses, and you say in the application 
process and applying for this information.
    What is the real cost, though, of compiling that 
information that they have to by law do anyway? It doesn't mean 
that they are going to be left without having to do that, so 
can you give me an idea of what that is, that they currently 
have to do anyway?
    Mr. Bopp. Absolutely. Yes. Nancy, I believe she even said 
in the EPW testimony back in February estimates without having 
formally done anything that about 130 hours go into calculating 
the colors used during the year by all employees, because, 
again, if you are decorating 20 different types of mugs a day 
with multiple colors, you have to track each color. Each color 
has a different amount of lead, and so----
    Ms. Solis. But she is still going to be required under law 
to do that anyway.
    Mr. Bopp. She still has to do that. Absolutely.
    Ms. Solis. So, that is not really what we are talking about 
here. We are talking about in this proposal by EPA is to reduce 
the information so all you are going to, all we are really 
talking about is that one application and which to me sounds de 
minimus in some sense.
    Mr. Bopp. According to EPA it is 15\1/2\ hours. So if Nancy 
were here, and I will speak for her, that is 2 whole days when 
she could be doing something else.
    Ms. Solis. Right. And I understand that.
    Mr. Bopp. So, and, again, it is, I think the key thing here 
is in this case for lead to be on that simpler form she has to 
be reporting zero release onsite and offsite. So I don't see 
how being on a simpler form, that is the key thing we are 
reporting here.
    Ms. Solis. Well, she also makes a choice by running her 
business that contains that kind of contaminants. So those are 
choices that business people make. So everyone in our society 
we usually agree that everyone pays under the law.
    Mr. Bopp. Oh, absolutely.
    Ms. Solis. So that is what is happening here.
    So, anyway, my other question is for Dr. Bullard. Thank you 
so much for coming and Mr. Bravo and all the panelists 
obviously, but I wanted to ask you with respect to the comment 
that was made earlier by Ms. O'Neill, what you feel about the 
fact that just 1 percentage of less information is going to be 
made available.
    What does that mean for communities of color and 
underrepresented areas?
    Mr. Bullard. I think it is important to understand that 1 
percent across the board may not seem like a large number for 
the kinds of releases that we are talking about or the number 
of facilities, but if you are talking about communities that 
are already overburdened, communities that already have more 
than their ``fair share'' of types of emitting facilities, you 
are not talking about a level playing field.
    Ms. Solis. So maybe what you, I am trying to understand. So 
I am looking in my own district where we have maybe in the city 
of Industry, near my district, you have several different 
industry-run organizations that have heavy, heavy 
concentrations of pollutants, whether it is paint, whether it 
is battery acid and arsenic and what have you. And if you are, 
you are taking some people off that list, it doesn't mean that 
it lessens the toxicity in the air or the water.
    And I guess that is what I am trying to understand is, in 
your opinion is that what would happen? We are not taking away 
the facility. The facility is still going to be there.
    Mr. Bullard. Right. The facility will still be there. 
Again, when you talk about one facility that may produce a 
small amount of pollution, it may, the toxicity level for that 
one facility may be such that it creates a huge health problem, 
health threat in those communities that are already 
overburdened and saturated.
    Ms. Solis. And so my concern, too, is that OMB asked EPA to 
work towards a national figure instead of looking at the 
localities that we have been hearing today from our witness 
from Mr. Chairman, and that is why I think when people somehow 
disregard the importance of environmental justice, that we are 
trying to somehow capture why it is important to have an equal 
playing field, because so many times we are not looked at 
adequately. And I know that is the case right now in my 
district. I have three Superfund sites, and we have high levels 
of contaminants, perchlorate in our water, which is another 
discussion that we have had before.
    And we have, this is, there is no scientific evidence yet, 
but I wish we could collaborate and have HHS here at another 
time to collaborate the data for incidents of diseases as well 
as high asthma rates, high incidence of epilepsy, cancer, and 
what have you. In an area where I grew up nearby a battery 
recycling plant where acid, arsenic was produced and disposed 
of, our water has been contaminated.
    Thank goodness for local jurisdictions in our State of 
California because we have Proposition 65, which requires 
notification. And most people will read a flyer that you will 
get in the mail, but they won't even understand what that 
means, and it means to be aware of, that there are some maybe 
ambient particular matter that is there in the air. We have 
found neighborhoods adjacent to where I live, where I grew up 
where there are cancer clusters; ovarian, all kinds, uterine. 
All kinds of different types of cancers, and it is rather 
alarming to me to know that this isn't just going on in my part 
of town, that it continues to happen.
     My time is up.
    Mr. Chairman, I yield back to you.
    Mr. Wynn [presiding]. I want to thank the vice-chair for 
giving me a little break there and particularly, again, for her 
leadership throughout on this issue.
    If there are no other questions at this time, I believe 
that concludes our business with these witnesses. We have no 
further witnesses today. Thank you again for your patience and 
for your testimony.
    I would like to remind Members that you may submit 
additional questions for the record to be answered by the 
relevant witnesses. The questions should be submitted to the 
committee clerk in the electronic form within the next 10 days. 
The clerk will notify your offices of procedures.
    And without objection thank you, again, and the 
subcommittee stands adjourned.
    [Whereupon, at 2:10 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T5093.086
    
    [GRAPHIC] [TIFF OMITTED] T5093.087
    
    [GRAPHIC] [TIFF OMITTED] T5093.088
    
    [GRAPHIC] [TIFF OMITTED] T5093.089
    
    [GRAPHIC] [TIFF OMITTED] T5093.090
    
    [GRAPHIC] [TIFF OMITTED] T5093.091
    
    [GRAPHIC] [TIFF OMITTED] T5093.092
    
    [GRAPHIC] [TIFF OMITTED] T5093.093
    
    [GRAPHIC] [TIFF OMITTED] T5093.094
    
    [GRAPHIC] [TIFF OMITTED] T5093.095
    
    [GRAPHIC] [TIFF OMITTED] T5093.096
    
    [GRAPHIC] [TIFF OMITTED] T5093.097
    
    [GRAPHIC] [TIFF OMITTED] T5093.098
    
    [GRAPHIC] [TIFF OMITTED] T5093.099
    
    [GRAPHIC] [TIFF OMITTED] T5093.100
    
    [GRAPHIC] [TIFF OMITTED] T5093.101
    
    [GRAPHIC] [TIFF OMITTED] T5093.102
    
    [GRAPHIC] [TIFF OMITTED] T5093.103
    
    [GRAPHIC] [TIFF OMITTED] T5093.104
    
    [GRAPHIC] [TIFF OMITTED] T5093.105
    
    [GRAPHIC] [TIFF OMITTED] T5093.106
    
    [GRAPHIC] [TIFF OMITTED] T5093.107
    
    [GRAPHIC] [TIFF OMITTED] T5093.108
    
    [GRAPHIC] [TIFF OMITTED] T5093.109
    
    [GRAPHIC] [TIFF OMITTED] T5093.110
    
    [GRAPHIC] [TIFF OMITTED] T5093.111
    
    [GRAPHIC] [TIFF OMITTED] T5093.112
    
    [GRAPHIC] [TIFF OMITTED] T5093.113
    
    [GRAPHIC] [TIFF OMITTED] T5093.114
    
    [GRAPHIC] [TIFF OMITTED] T5093.115
    
    [GRAPHIC] [TIFF OMITTED] T5093.116
    
    [GRAPHIC] [TIFF OMITTED] T5093.117
    
    [GRAPHIC] [TIFF OMITTED] T5093.118
    
    [GRAPHIC] [TIFF OMITTED] T5093.119
    
    [GRAPHIC] [TIFF OMITTED] T5093.197
    
    [GRAPHIC] [TIFF OMITTED] T5093.198
    
    [GRAPHIC] [TIFF OMITTED] T5093.120
    
    [GRAPHIC] [TIFF OMITTED] T5093.121
    
    [GRAPHIC] [TIFF OMITTED] T5093.122
    
    [GRAPHIC] [TIFF OMITTED] T5093.123
    
    [GRAPHIC] [TIFF OMITTED] T5093.124
    
    [GRAPHIC] [TIFF OMITTED] T5093.125
    
    [GRAPHIC] [TIFF OMITTED] T5093.126
    
    [GRAPHIC] [TIFF OMITTED] T5093.127
    
    [GRAPHIC] [TIFF OMITTED] T5093.128
    
    [GRAPHIC] [TIFF OMITTED] T5093.129
    
    [GRAPHIC] [TIFF OMITTED] T5093.130
    
    [GRAPHIC] [TIFF OMITTED] T5093.131
    
    [GRAPHIC] [TIFF OMITTED] T5093.132
    
    [GRAPHIC] [TIFF OMITTED] T5093.133
    
    [GRAPHIC] [TIFF OMITTED] T5093.134
    
    [GRAPHIC] [TIFF OMITTED] T5093.135
    
    [GRAPHIC] [TIFF OMITTED] T5093.136
    
    [GRAPHIC] [TIFF OMITTED] T5093.137
    
    [GRAPHIC] [TIFF OMITTED] T5093.138
    
    [GRAPHIC] [TIFF OMITTED] T5093.139
    
    [GRAPHIC] [TIFF OMITTED] T5093.140
    
    [GRAPHIC] [TIFF OMITTED] T5093.141
    
    [GRAPHIC] [TIFF OMITTED] T5093.142
    
    [GRAPHIC] [TIFF OMITTED] T5093.143
    
    [GRAPHIC] [TIFF OMITTED] T5093.144
    
    [GRAPHIC] [TIFF OMITTED] T5093.145
    
    [GRAPHIC] [TIFF OMITTED] T5093.146
    
    [GRAPHIC] [TIFF OMITTED] T5093.147
    
    [GRAPHIC] [TIFF OMITTED] T5093.148
    
    [GRAPHIC] [TIFF OMITTED] T5093.149
    
    [GRAPHIC] [TIFF OMITTED] T5093.150
    
    [GRAPHIC] [TIFF OMITTED] T5093.151
    
    [GRAPHIC] [TIFF OMITTED] T5093.152
    
    [GRAPHIC] [TIFF OMITTED] T5093.153
    
    [GRAPHIC] [TIFF OMITTED] T5093.154
    
    [GRAPHIC] [TIFF OMITTED] T5093.155
    
    [GRAPHIC] [TIFF OMITTED] T5093.156
    
    [GRAPHIC] [TIFF OMITTED] T5093.157
    
    [GRAPHIC] [TIFF OMITTED] T5093.158
    
    [GRAPHIC] [TIFF OMITTED] T5093.159
    
    [GRAPHIC] [TIFF OMITTED] T5093.160
    
    [GRAPHIC] [TIFF OMITTED] T5093.161
    
    [GRAPHIC] [TIFF OMITTED] T5093.162
    
    [GRAPHIC] [TIFF OMITTED] T5093.203
    
    [GRAPHIC] [TIFF OMITTED] T5093.204
    
    [GRAPHIC] [TIFF OMITTED] T5093.205
    
    [GRAPHIC] [TIFF OMITTED] T5093.206
    
    [GRAPHIC] [TIFF OMITTED] T5093.207
    
    [GRAPHIC] [TIFF OMITTED] T5093.163
    
    [GRAPHIC] [TIFF OMITTED] T5093.164
    
    [GRAPHIC] [TIFF OMITTED] T5093.165
    
    [GRAPHIC] [TIFF OMITTED] T5093.166
    
    [GRAPHIC] [TIFF OMITTED] T5093.167
    
    [GRAPHIC] [TIFF OMITTED] T5093.168
    
    [GRAPHIC] [TIFF OMITTED] T5093.169
    
    [GRAPHIC] [TIFF OMITTED] T5093.170
    
    [GRAPHIC] [TIFF OMITTED] T5093.171
    
    [GRAPHIC] [TIFF OMITTED] T5093.172
    
    [GRAPHIC] [TIFF OMITTED] T5093.173
    
    [GRAPHIC] [TIFF OMITTED] T5093.174
    
    [GRAPHIC] [TIFF OMITTED] T5093.175
    
    [GRAPHIC] [TIFF OMITTED] T5093.176
    
    [GRAPHIC] [TIFF OMITTED] T5093.177
    
    [GRAPHIC] [TIFF OMITTED] T5093.178
    
    [GRAPHIC] [TIFF OMITTED] T5093.179
    
    [GRAPHIC] [TIFF OMITTED] T5093.180
    
    [GRAPHIC] [TIFF OMITTED] T5093.181
    
    [GRAPHIC] [TIFF OMITTED] T5093.182
    
    [GRAPHIC] [TIFF OMITTED] T5093.183
    
    [GRAPHIC] [TIFF OMITTED] T5093.184
    
    [GRAPHIC] [TIFF OMITTED] T5093.185
    
    [GRAPHIC] [TIFF OMITTED] T5093.186
    
    [GRAPHIC] [TIFF OMITTED] T5093.187
    
    [GRAPHIC] [TIFF OMITTED] T5093.188
    
    [GRAPHIC] [TIFF OMITTED] T5093.189
    
    [GRAPHIC] [TIFF OMITTED] T5093.190
    
    [GRAPHIC] [TIFF OMITTED] T5093.191
    
    [GRAPHIC] [TIFF OMITTED] T5093.192
    
    [GRAPHIC] [TIFF OMITTED] T5093.193
    
    [GRAPHIC] [TIFF OMITTED] T5093.194
    
    [GRAPHIC] [TIFF OMITTED] T5093.195
    
    [GRAPHIC] [TIFF OMITTED] T5093.196
    
    [GRAPHIC] [TIFF OMITTED] T5093.208
    
    [GRAPHIC] [TIFF OMITTED] T5093.209
    
    [GRAPHIC] [TIFF OMITTED] T5093.210
    
    [GRAPHIC] [TIFF OMITTED] T5093.211
    
    [GRAPHIC] [TIFF OMITTED] T5093.212
    
    [GRAPHIC] [TIFF OMITTED] T5093.213
    
    [GRAPHIC] [TIFF OMITTED] T5093.214
    
    [GRAPHIC] [TIFF OMITTED] T5093.215
    
    [GRAPHIC] [TIFF OMITTED] T5093.216
    
    [GRAPHIC] [TIFF OMITTED] T5093.217
    
    [GRAPHIC] [TIFF OMITTED] T5093.218
    
    [GRAPHIC] [TIFF OMITTED] T5093.219
    
    [GRAPHIC] [TIFF OMITTED] T5093.220
    
    [GRAPHIC] [TIFF OMITTED] T5093.221
    
    [GRAPHIC] [TIFF OMITTED] T5093.222
    

</pre></body></html>
